<html>
<title> - ENERGY AND WATER DEVELOPMENT APPROPRIATIONS FOR FISCAL YEAR 2010</title>
<body><pre>[Senate Hearing 111-]
[From the U.S. Government Publishing Office]


 
    ENERGY AND WATER DEVELOPMENT APPROPRIATIONS FOR FISCAL YEAR 2010 

                              ----------                              


                        THURSDAY, JUNE 18, 2009

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10:59 a.m., in room SD-192, Dirksen 
Senate Office Building, Hon. Byron L. Dorgan (chairman) 
presiding.
    Present: Senators Dorgan, Tester, Bennett, Cochran, Bond, 
and Alexander.

                      DEPARTMENT OF DEFENSE--CIVIL

                         Department of the Army

                       Corps of Engineers--Civil

STATEMENT OF TERRENCE C. SALT, ACTING ASSISTANT 
            SECRETARY OF THE ARMY

              OPENING STATEMENT OF SENATOR BYRON L. DORGAN

    Senator Dorgan. I'm going to call the meeting to order. 
This is the subcommittee of the Appropriations Committee of the 
United States Senate, Subcommittee on Energy and Water. Today 
we're going to take testimony on the fiscal year 2010 budget 
request for the U.S. Army Corps of Engineers and the Department 
of the Interior.
    Testifying for the Corps will be Terrence Salt, Acting 
Assistant Secretary of the Army for Civil Works. Mr. Salt, 
congratulations on your appointment as Principal Deputy and 
your current assignment as Acting Assistant Secretary. I look 
forward to working with you and Ms. Darcy once she is confirmed 
on the many water resource problems that we face.
    I know that you will familiarize yourself especially with 
North Dakota water issues and know something about some of them 
already, perhaps Mississippi issues as well. But those of us 
who serve on this subcommittee have an abiding interest in 
these matters.
    Lieutenant General Van Antwerp, Chief of the Engineers for 
the U.S. Army Corps of Engineers, it's always good to see you 
and welcome. We appreciate your being here.
    Testifying for the Department of the Interior will be 
Deanna Archuleta, the Acting Assistant Secretary for Water and 
Science at the Department. Welcome to you. Congratulations, 
too, on your appointment as the Deputy Assistant Secretary for 
Water and Science and on your current assignment as the Acting 
Assistant Secretary for Water and Science. I look forward to 
working with you and Ms. Castle once she is confirmed on many 
of the western water issues.
    Michael Connor, Commissioner of the Bureau of Reclamation. 
Commissioner Connor, congratulations on your recent 
confirmation. We appreciate your being here and I know that 
you're aware I'm passionate about the issues concerning rural 
water supply, especially on the unmet promises for now nearly 
five decades in North Dakota when they built the Garrison Dam, 
and I know you'll be more familiar with those projects as well 
and perhaps already are.
    The task of talking about the Corps budget is difficult 
because we've only had the details available for about a week. 
I'm talking about the detailed budget justifications. 
Justifications were released 5 weeks after the President 
released the budget to Congress, which has made it very 
difficult for us. Every other Federal agency got their budget 
justifications to Congress with the submission of the budget.
    I understand that some of that delay was beyond the control 
of the Corps, General. For instance, I understand the budget 
justifications were not cleared by OMB until May 29. That was 3 
weeks after the budget was released. So perhaps my real beef 
here is with the Office of Management and Budget. That would 
not be a new irritation for me.
    The Corps of Engineers did not get the budget 
justifications on the Internet until June 11, and printed 
copies were not furnished until June 12, to the extent that 
they were printed. So we've had staff working on these issues 
now, but it's been difficult.
    Mr. Salt, we postponed this hearing in May because those 
details weren't available, and I thought we might have to 
postpone a second time. But we're here finally at long last to 
talk about these various issues.
    This is the second time in 4 years that this has happened, 
so it's not about the administration. It's about particularly 
OMB and the tortured mechanics that these things go through.
    The President's fiscal year 2010 budget for the Corps of 
Engineers proposes $5.125 billion, which is $277 million below 
the fiscal year 2009 enacted of $5.402 billion. This is the 
narrowest gap that we've seen for a number of years between 
current enacted amount for fiscal year 2009 and the President's 
fiscal year 2010 budget.
    When you look at the budget details on an account by 
account basis, the difference really is considerably larger 
than that. General investigations is down $68 million from the 
current year. General construction is down $424 million from 
the current year, and this certainly doesn't help us reduce the 
more than $67 billion backlog in unconstructed projects.
    The Missouri River and tributaries is down $136 million 
from the current year.
    O&M is one of the bright spots in the Corps budget with an 
increase of about $300 million. O&M has been essentially flat 
for a number of years, even though personnel costs have 
continued to rise and the inventory of Corps projects has 
continued to age, increasing maintenance needs.
    In this case, the administration has not resorted to budget 
tricks, which we've seen in many previous years. I appreciate 
that. The O&M budget that I just described is in fact a true 
increase, not some mirage, and that will be helpful.
    To provide even this modest O&M increase and get the other 
major accounts to current levels would require an additional 
$600 million. Now, the two major projects for the Department of 
the Interior under this subcommittee are the Central Utah 
Project Completion Act and the Water and Related Resources for 
the Bureau of Reclamation. Your budgets, I would say to Ms. 
Archuleta and Mr. Connor, are relatively flat compared to 
fiscal year 2009.
    The Central Utah Project Completion account is proposed at 
the same amount as the current year, and the Bureau of 
Reclamation is down $55 million from the current year. A flat 
budget, of course, is a declining budget for your agencies. 
Personnel and contract costs continue to increase each year by 
some amount. So you're accomplishing less work when you propose 
a flat budget. Unfortunately, the needs for water and power in 
the West continue to rise.
    I'm very cognizant of the very serious deficit problems we 
face in our Government. I'm also aware, though, that some 
spending is just spending, while other spending is a really 
important investment which provides dividends for the future. 
Much of the investment we make in water projects and 
reclamation projects produce significant deficits and great 
assets for this country.
    So it's not escaped my notice that we really need to 
evaluate on a line by line basis what our needs are, what our 
responsibilities are, and what kinds of funding we will have 
available for them.
    I know that you come to us today as members of the 
administration, destined to support and required to support the 
budget that has been sent to us. In fact, only in recent years 
on one occasion have we had someone in a complete fit of candor 
and unbelievable truthfulness say: No, I'm sitting here at the 
table and the amount of money that's been requested is far 
short of what is really needed. We were staggered to hear that 
kind of testimony, and the next morning that person was fired.
    So my expectation is that you will pay fealty to the budget 
you're here to support today but you will hear from members of 
our subcommittee that in these areas of water projects and the 
Corps of Engineers' needs and responsibilities as well as the 
Bureau's responsibilities, that many of us have very 
significant and strong feelings about how to meet those 
obligations.
    I want to be able to get to you so that you can give us 
your statements, but I want to talk just for a moment about the 
American Recovery and Reinvestment Act. I was surprised that 
the request from the administration on an economic recovery act 
to try to lift the country's economy, which as you know was 
controversial--some voted for it, some didn't--included not one 
penny from the administration for either of your agencies. I 
was pretty surprised by that.
    It seems to me that if you're going to do something to 
substantially address infrastructure problems and put people 
back to work and have an asset when it's completed, one of the 
things you would look at would be water issues, water projects, 
and reclamation projects. But there wasn't any funding in the 
initial request.
    Senator Cochran and I and others included funding in this 
economic recovery package for water projects, then left it to 
your agencies to decide how the funding that we finally put 
together would be distributed. We believe we gave pretty clear 
guidance, without earmarking, how funding should be 
distributed, both in the legislation as well as in report 
language.
    But we have some concerns about how the distribution of 
that funding was developed behind closed doors. So we'll talk 
some about that today.
    Let me thank you for being here. I have other things I will 
put in the record that describe some of our interests and some 
of our concerns.
    Let me now call on my colleague from Mississippi, Senator 
Cochran, for any comments he wishes to make.

                   STATEMENT OF SENATOR THAD COCHRAN

    Senator Cochran. Mr. Chairman, thank you. Thank you for 
convening this important hearing to review the administration's 
fiscal year 2010 budget request. I'm pleased to join you in 
welcoming this panel and to thank them for appearing here 
before the subcommittee today.
    The Corps of Engineers has a very large presence in my 
State. Flood control activities on the Mississippi and Yazoo 
Rivers, dredging of ports on the Mississippi River and in the 
gulf coast region, and environmental infrastructure projects 
are all very important activities that affect the economic 
future of our State and the physical survival of our citizens.
    I'm concerned that the budget we are reviewing today might 
not adequately address some of these most important needs. But 
I would like to take the opportunity to compliment the efforts 
of the Corps of Engineers, the Mississippi Coastal Improvements 
Program team, specifically in Mobile, Alabama, for completing 
the plan to implement hurricane mitigation projects and to 
restore Mississippi's barrier islands.
    The plan the team has provided is a much needed project 
that is essential to protect the vast natural resources as well 
as property of the State of Mississippi and its citizens and to 
help protect infrastructure and commerce along the Gulf of 
Mexico.
    General Van Antwerp, as the Chief of Engineers I know you 
understand it is your charge to verify the final version of 
this plan. It's my hope that you will be able to certify the 
proposal expeditiously after a careful review of its merits.
    I would also like to compliment the Engineer Research and 
Design Center of the Army Corps of Engineers. The research 
undertaken at this facility is of the highest importance to our 
Nation and our armed forces. Once again, the center was named 
the Army's top research laboratory, an honor that is often 
bestowed on the researchers and staff in Vicksburg, 
Mississippi. We are very proud of all of them.
    The Civil Works Division of the Army Corps of Engineers has 
a unique history. It's vital to our Nation's infrastructure 
protection and it's very important that we in Congress 
recognize both the importance of the work done by the Corps of 
Engineers and carefully review the costs and other challenges 
that these projects may face.
    We thank you again for your cooperation with this 
subcommittee and I look forward to your testimony.
    Senator Dorgan. Senator Cochran, thank you very much.
    I wanted to make one additional point before I recognize 
the witnesses, and that is the question of earmarks. I'm 
speaking explicitly about the President's request coming 
through the agencies of what it is you wish to have funded--
your earmarks--and the metrics that you use to determine that, 
and the concern that many of us have how these things change 
year to year. The criteria for budgetable projects switch from 
one year to the next, depending on the administration, and even 
changes inside the same administration. For example, shifting 
views on shore protection projects, the way major 
rehabilitation projects and environmental compliance activities 
have bounced among various accounts, rural water projects are 
funded one year, next they are not funded, even the way the 
benefit-to-cost ratio is chosen to determine budgetable 
projects moves up and down on the list.
    Again, these are all earmarks chosen by someone, and 
ultimately the President. But someone in your agencies, through 
OMB, decides to earmark all this money and then send the 
earmarks to Congress and say: We've made these decisions about 
what our priorities are; that's how we've earmarked it; but we 
have our own metrics with which to make the decisions. We up 
here look at them and think: Well, why do those metrics change 
so much from one year to the next with shore protection or 
water projects and so on?
    We don't quite understand that, and we hope that we can 
begin a discussion with you about how you decide on what 
earmarks you request, what those metrics are, and whether those 
metrics can perhaps see the light of day so that we understand 
them a bit better.
    Well, let me thank all of you for being here and let me 
begin, Mr. Secretary, with your testimony. Terrence Salt, 
Acting Assistant Secretary of the Army for Civil Works, thank 
you for being with us.

                     STATEMENT OF TERRENCE C. SALT

    Mr. Salt. Sir, thank you, Chairman Dorgan, Senator Cochran. 
Thank you for the opportunity to present the President's budget 
for the Civil Works Program of the Army Corps of Engineers for 
fiscal year 2010. I will also briefly touch on the activities 
related to the stimulus bill.
    In developing this budget, we have sought to achieve four 
principal objectives: the first, to focus construction funds on 
those investments that provide the best return from a national 
perspective in achieving economic, environmental, and public 
safety objectives;
    Second, to support the safe and reliable operations and 
maintenance of key existing water resources infrastructure;
    Third, to improve Corps project planning and program 
performance;
    Finally, to advance aquatic ecosystem restoration efforts, 
including the restoration of Louisiana's coastal wetlands and 
Florida's Everglades.
    The budget provides funding for the development and 
restoration of the Nation's water and related resources within 
the three main Civil Works program areas. Sir, you mentioned 
the commercial navigation, flood and coastal storm damage 
reduction, and aquatic ecosystem restoration.
    Additionally, the budget supports hydropower, recreation, 
environmental stewardship, water supply services at existing 
water resource projects owned or operated by the Corps, 
protection of the Nation's regulated waters and wetlands, the 
cleanup of sites contaminated as a result of the Nation's early 
efforts to develop atomic weapons, and emergency preparedness 
and training.
    As you pointed out, the total discretionary funding of 
$5.125 billion in the fiscal year 2010 budget is our budget 
and, although it is less than was previously appropriated last 
year, it is the highest amount ever requested by the President 
for the Civil Works Program.
    The budget proposes enactment of legislation to authorize a 
lock usage fee which would, over time, replace the diesel fuel 
tax now paid by most commercial users of the inland and intra-
coastal waterways. This proposed legislation will address the 
declining balance in the Inland Waterways Trust Fund. This 
affects the Government's ability to finance the non-Federal 
portion of Federal capital investment in these waterways and 
will do so in a way that improves economic efficiency compared 
to the existing fuel tax by more closely aligning the costs of 
those who use the Corps locks for commerce with the capital 
costs that the Corps incurs on their behalf.
    The administration stands ready to work with the Congress 
and stakeholders with interests in these capital investments to 
help pass and implement this proposal.
    The fiscal year 2010 budget continues the Civil Works 
Program's commitment to a performance-based approach to 
budgeting. The Army applied objective performance guidelines to 
focus construction funds on these investments within the three 
main mission areas of the Corps that provides the best return 
from a national perspective in achieving economic, 
environmental, and public safety objectives.
    Similarly, the Army used objective performance criteria to 
allocate O&M funds in the fiscal year 2010 budget. The O&M 
criteria consider both the condition of the project and the 
potential consequences for project performance if the O&M 
activity were not undertaken in fiscal year 2010.
    In fiscal year 2010, the court will focus efforts on 
developing new strategies along with other Federal agencies and 
non-Federal project partners, to better manage, protect, and 
restore the Nation's water and related land resources, 
including flood plains, flood-prone areas and related 
ecosystems.
    I'd like to speak for a minute about the recently enacted 
American Recovery and Reinvestment Act, which provided $4.6 
billion for the Corps' Civil Works Program. The Corps is 
managing these funds and successfully achieving the Recovery 
Act's stated purposes. Obligations and expenditures commenced 
in early May. Upon clearance of the Corps' project plans and 
lists, projects were selected based on the fundamental tenet of 
prudent management and investment in infrastructure and the 
ecosystem restoration projects that will provide long-term 
benefits for the Nation.
    The Civil Works allocations are fully consistent with the 
President's direction provided in his executive memorandum of 
March 20, 2009, ensuring responsible spending of Recovery Act 
funds. Moreover, the Civil Works allocations are consistent 
with additional project selection criteria provided in the 
conference committee report accompanying the act that projects, 
programs, or activities that are accomplished with Recovery Act 
dollars will be obligated and executed quickly, will result in 
high immediate employment, have little schedule risk, will be 
executed by contract or direct hire of temporary labor, and 
will complete a project phase, a project, an element, or will 
provide a useful service that does not require additional 
funding.
    Also, as stipulated in the Recovery Act, no funds will be 
used for any project that at the time of the obligation has not 
received appropriations provided for energy and water 
development--essentially no new starts.
    The wide geographic distribution of projects spreads the 
employment and other economic benefits across the United 
States. Funding is also distributed across Civil Works programs 
to provide the Nation with project benefits related to inland 
and coastal navigation, the environment, flood risk management, 
hydropower, recreation, and more.
    I'm pleased to report that as of the close of business June 
12, 2009, the Corps has obligated more than $320 million, work 
on the ground has begun, and real progress is being made.
    In conclusion, this administration has made rebuilding 
America's infrastructure a priority. Through resources provided 
for the Army Civil Works program in the President's budget for 
fiscal year 2010, as well as the resources provided through the 
stimulus bill, the Corps can help achieve this objective.

                           PREPARED STATEMENT

    Mr. Chairman, I am proud to support this budget for the 
Army's Civil Works program. I look forward to working with this 
subcommittee and to your support of the President's budget 
proposals, and I welcome any questions you may have.
    Thank you, sir.
    [The statement follows:]
                 Prepared Statement of Terrence C. Salt
    Chairman Dorgan, Senator Bennett, distinguished members of the 
subcommittee, thank you for the opportunity to present the President's 
budget for the Civil Works Program of the Army Corps of Engineers for 
fiscal year 2010.
                                overview
    In developing this budget, we sought to achieve four principal 
objectives:
  --Focus construction funds on those investments that provide the best 
        return from a national perspective in achieving economic, 
        environmental and public safety objectives;
  --Support the safe and reliable operation and maintenance of key 
        existing water resources infrastructure;
  --Improve Corps project planning and program performance; and
  --Advance aquatic ecosystem restoration efforts, including 
        restoration of Louisiana's coastal wetlands and Florida's 
        Everglades.
    The budget provides funding for development and restoration of the 
Nation's water and related resources within the three main Civil Works 
program areas: commercial navigation, flood and coastal storm damage 
reduction, and aquatic ecosystem restoration. Additionally, the budget 
supports hydropower, recreation, environmental stewardship, and water 
supply services at existing water resources projects owned or operated 
by the Corps. Finally, the Budget provides for protection of the 
Nation's regulated waters and wetlands; cleanup of sites contaminated 
as a result of the Nation's early efforts to develop atomic weapons; 
and emergency preparedness and training. The budget does not fund work 
that should be the responsibility of non-Federal interests or other 
Federal agencies, such as wastewater treatment and municipal and 
industrial water treatment and distribution.
             fiscal year 2010 discretionary funding program
    The total discretionary funding of $5.125 billion in the fiscal 
year 2010 budget is the highest amount ever requested by the President 
for the Civil Works program.
    Within this total, $1.718 billion is budgeted for projects in the 
Construction account. The budget provides $2.504 billion for activities 
funded in the Operation and Maintenance (O&M) account.
    The fiscal year 2010 budget also includes $100 million for 
Investigations; $248 million for Flood Control, Mississippi River and 
Tributaries; $41 million for Flood Control and Coastal Emergency; $190 
million for the Regulatory Program; $134 million for the Formerly 
Utilized Sites Remedial Action Program; $184 million for the Expenses 
account and $6 million for the Office of the Assistant Secretary for 
Civil Works.
    Enclosure 1 displays the current estimate for the distribution of 
fiscal year 2010 discretionary funding among eight appropriation 
accounts, eight program areas plus executive direction and management, 
and five funding sources including the general fund of the Treasury and 
trust funds. Enclosure 2 is a crosscut between appropriation accounts 
and program areas.
    The fiscal year 2010 budget for the Civil Works program supports 
high performing new studies and construction starts.
    The budget funds three new watershed studies: Green River 
Watershed, Kentucky; Ocmulgee River Watershed, Georgia; St. Louis 
Watershed, Missouri; and a study addressing Access to Water Data. The 
budget also includes $2 million for a high-priority, interagency 
evaluation of the Nation's vulnerability to damage from flooding, the 
Water Resources Priorities study, as authorized in section 2032 of the 
Water Resources Development Act of 2007 (WRDA 2007).
    The budget also includes funding for five construction starts, 
namely Napa River Salt Marsh Restoration, California; Kansas City's, 
Missouri and Kansas flood damage reduction project; Washington, DC and 
Vicinity flood damage reduction project; Norfolk Harbor, Craney Island, 
VA; and the Bridges at Deep Creek, Virginia project on the Atlantic-
Intracoastal Waterway.
Restoring Louisiana Gulf Coast Wetlands
    For fiscal year 2010, the allocation for the Louisiana coastal area 
(LCA) has been increased by $5 million, from $20 million to $25 million 
in the Investigations account. Over 1 million acres of Louisiana's 
coastal wetlands have been lost since the 1930's; another one-third of 
a million acres could be lost over the next 50 years unless large-scale 
corrective actions are taken. A 10-year plan of studies, projects and 
science support was developed through a public involvement process, and 
working closely with other Federal agencies and the State of Louisiana. 
All construction activities under the plan will be subject to approval 
of feasibility level of detail documents by the Secretary of the Army. 
The increased funding level for fiscal year 2010 includes $20 million 
for the LCA ecosystem restoration program and reflects an accelerated 
schedule arising from section 7006(e)(3) of WRDA 2007. The fiscal year 
2010 amount also includes $5 million for the science needed to support 
the ongoing effort to restore the complex coastal wetland and barrier 
island ecosystem of coastal Louisiana.
Storm Damage Reduction for the Louisiana Coast
    The Investigations account includes $3 million for completion and 
review of the ongoing Louisiana Coastal Protection and Restoration 
(LACPR) study. The final LACPR Technical Report is scheduled to be 
completed at the Corps District level in late fiscal year 2009. Funding 
included in the fiscal year 2010 budget will be used to refine and 
integrate LACPR findings and outputs regarding alternative trade-offs, 
and coastal landscape contributions to risk management, with ongoing 
Hurricane Storm Damage Reduction projects and Coastal Protection and 
Restoration projects and to delineate comprehensive plans for higher 
levels of storm surge risk reduction.
Everglades
    In partnership with the South Florida Water Management District and 
the National Park Service, the Corps is working to restore much of the 
unique natural ecosystem value to the Everglades. The objective of the 
South Florida Ecosystem Restoration Program is to restore, protect and 
preserve the south Florida ecosystem, including the Everglades, while 
providing for other water related needs of the region. In order to move 
the program forward, the budget for the Corps provides $214 million for 
fiscal year 2010, an increase of $91 million above the amount 
appropriated in fiscal year 2009. Within this amount, the budget would 
initiate or advance construction of the three authorized projects in 
the Comprehensive Everglades Restoration Plan: Picayune Strand, Site 
One Impoundment, and Indian River Lagoon--South.
                      inland waterways legislation
    The budget proposes enactment of legislation to authorize a lock 
usage fee, which would over time replace the diesel fuel tax now paid 
by most commercial users of the inland and intracoastal waterways. This 
proposed legislation will improve the way that the Nation raises the 
revenue needed to cover the non-Federal share of the capital costs of 
inland and intracoastal waterways projects. The balance in the Inland 
Waterways Trust Fund (IWTF), which affects the Government's ability to 
finance the non-Federal portion of Federal capital investment in these 
waterways, has been declining since fiscal year 2002. The legislation 
will raise more revenue from the users and will do so in a way that 
improves economic efficiency compared to the existing fuel tax, by more 
closely aligning the costs of those who use the Corps locks for 
commerce with the capital costs that the Corps incurs on their behalf. 
The administration stands ready to work with the Congress and 
stakeholders with interest in these capital investments to help pass 
and implement this proposal. The amount provided in the fiscal year 
2010 budget for construction and rehabilitation of projects on the 
inland waterway system, $85 million, has been constrained to ensure 
that necessary funding will be available in the IWTF under current law, 
in the event that the proposed legislation is not in place prior to the 
beginning of fiscal year 2010.
                           other initiatives
Response to Climate Change at Corps Facilities
    The Corps is working, along with other Federal agencies, to address 
the implications of climate change, which has the potential to affect 
the way in which the Corps manages its projects. The fiscal year 2010 
budget includes $5 million in the O&M account to initiate a program to 
develop and begin implementing practical, nationally consistent, and 
cost-effective approaches and policies to reduce potential 
vulnerabilities to water infrastructure resulting from climate change.
Nationwide Evaluation of Hydropower Rehabilitation
    The budget includes $2 million in the O&M account to conduct a 
nationwide assessment of the Corps hydropower program. This initiative 
will help to develop a long-term programmatic investment strategy based 
on a national approach to prioritizing hydropower replacement studies 
and projects.
Low Commercial Use Navigation Pilot Project
    The budget emphasizes the safe and reliable operation of key 
infrastructure assets that are of central importance to the Nation, 
including federally maintained channels and harbors that support high 
volumes of commercial commerce. From a national perspective, projects 
that no longer carry significant commercial traffic nor serve to meet 
subsistence or safety needs have a lower priority. However, many of 
these low commercial use projects remain important locally to the 
people that they serve.
    The fiscal year 2010 budget includes a $1.5 million pilot project 
in the O&M account to develop and encourage alternate non-traditional 
ways to fund maintenance of low commercial use harbors and waterways. 
The pilot project would focus on the Atlantic Coast and Chesapeake Bay 
in the North Atlantic and South Atlantic Divisions of the Corps. It 
will identify the universe of Federal harbors and inland waterway 
segments that support lower levels of commercial use and their 
respective non-Federal sponsors. The project will also formulate a 
range of possible long-term options for the funding and management of 
such facilities, evaluate the pros and cons of these options, and 
examine their applicability to the various types of low use navigation 
projects. This initiative also envisions that more regional general 
permits will be developed through the Corps' Regulatory Program to 
streamline efforts by non-Federal entities to accomplish the 
maintenance of these channels harbors.
         planning improvements and performance-based budgeting
    The Army continues working through the Chief of Engineers to 
strengthen and improve the planning expertise of the Corps, including 
greater support for planning Centers of Expertise, better integration 
of project purposes, and greater reliability of cost estimates and 
schedules in both planning and programming processes. These efforts 
have already begun and will ultimately improve all of our project 
reports.
    The fiscal year 2010 budget continues the Civil Works program's 
commitment to a performance-based approach to budgeting. Competing 
investment opportunities for studies, design, construction, and 
operation and maintenance were evaluated using multiple metrics. The 
Army used and will continue to use objective, performance criteria to 
guide its recommendations on the allocation of funds.
    The Army applied objective performance guidelines to its many 
competing construction projects in order to establish priorities among 
them and to guide the allocation of funds to high-performing ongoing 
projects and high-performing new construction starts. These guidelines 
focus construction funds on those investments within the three main 
mission areas of the Corps that provide the best return from a national 
perspective in achieving economic, environmental, and public safety 
objectives. Similarly, the Army used objective performance criteria to 
allocate O&M funds in the fiscal year 2010 budget. The O&M criteria 
consider both the condition of the project and the potential 
consequences for project performance if the O&M activity were not 
undertaken in fiscal year 2010.
    In fiscal year 2010 the Corps will focus efforts on developing new 
strategies, along with other Federal agencies and non-Federal project 
partners, to better manage, protect, and restore the Nation's water and 
related land resources, including floodplains, flood-prone areas, and 
related ecosystems. The Corps also will continue to pursue management 
reforms that improve project cost and schedule performance to ensure 
the greatest value from invested resources, while strengthening the 
accountability and transparency of the way in which taxpayer dollars 
are being spent.
                 american recovery and reinvestment act
    The American Recovery and Reinvestment Act provided $4.6 billion 
for the Civil Works program. That amount included $2 billion for the 
Construction account; $2.075 billion for O&M account; $375 million for 
Flood Control, Mississippi River and Tributaries; $25 million for 
Investigations; $25 million for the Regulatory Program; and $100 
million for the Formerly Used Sites Remedial Action Program. Economists 
estimate the Corps' Recovery Act appropriation will create or maintain 
approximately 57,400 direct construction industry jobs and an 
additional 64,000 indirect and induced jobs in firms supplying or 
supporting the construction and the businesses that sell goods and 
services to these workers and their families.
    The Corps will manage and expend these funds so as to achieve the 
Recovery Act's stated purposes, including both commencing expenditures 
as quickly as possible consistent with prudent management and investing 
in infrastructure and ecosystem restoration that will provide long-term 
benefits. The Civil Works allocations also are fully consistent with 
the President's direction provided in the Executive Memorandum of March 
20, 2009--Ensuring Responsible Spending of Recovery Act Funds. In that 
Memorandum, the President directed agencies to ensure that Recovery Act 
funds are spent responsibly and transparently and that projects are 
selected on merit-based principles.
    Moreover, the Civil Works allocations are consistent with 
additional project selection criteria provided in the Conference 
Committee report accompanying the act that projects, programs or 
activities that are accomplished with Recovery Act dollars will be 
obligated and executed quickly; will result in high, immediate 
employment; have little schedule risk; will be executed by contract or 
direct hire of temporary labor; and will complete a project phase, a 
project, an element, or will provide a useful service that does not 
require additional funding. Also as stipulated in the Recovery Act, no 
funds will be used for any PPA that, at the time of the obligation, has 
not received appropriations provided for Energy and Water Development.
    The Corps selected approximately 170 activities in the Construction 
account, 520 in the Operation and Maintenance account, 45 in the 
Mississippi and Tributaries account, 70 in the Investigations account, 
and 9 in the FUSRAP account. These activities mostly involve the 
funding of work under a single contract, though in some cases projects 
or useful increments of projects will be completed.
    The wide geographic distribution of projects spreads the employment 
and other economic benefits across the United States. Funding also is 
distributed across Civil Works programs to provide the Nation with 
project benefits related to inland and coastal navigation, the 
environment, flood risk management, hydropower, recreation, and more.
                               conclusion
    The administration has made rebuilding America's infrastructure a 
priority. Through resources provided for the Army Civil Works program 
in the President's budget for fiscal year 2010, the Corps can help 
achieve this objective. We seek to apply 21st century technological 
advances to present day challenges, while protecting and restoring 
significant ecological resources.
    Mr. Chairman, I am proud to support the fiscal year 2010 budget for 
the Army Civil Works program. I look forward to working with this 
subcommittee and to your support of the President's Budget proposals. 
Thank you.
                              enclosure 1

 DEPARTMENT OF THE ARMY--CORPS OF ENGINEERS--CIVIL WORKS BUDGET SUMMARY,
                            FISCAL YEAR 2010
------------------------------------------------------------------------
                                                             Amount
------------------------------------------------------------------------
Requested New Appropriations by Account:
    Investigations...................................      $100,000,000
    Construction.....................................  \1\ 1,718,000,000
    Operation and Maintenance........................  \2\ 2,504,000,000
    Regulatory Program...............................       190,000,000
    Mississippi River and Tributaries................       248,000,000
    Expenses.........................................       184,000,000
    Flood Control and Coastal Emergencies............        41,000,000
    Formerly Utilized Sites Remedial Action Program..       134,000,000
    Office of the Assistant Secretary................         6,000,000
                                                      ------------------
      TOTAL..........................................     5,125,000,000
                                                      ==================
Sources of New Appropriations:
    General Fund.....................................    (4,204,000,000)
    Harbor Maintenance Trust Fund....................      (793,000,000)
    Inland Waterways Trust Fund......................       (85,000,000)
    Special Recreation User Fees.....................       (43,000,000)
                                                      ------------------
      TOTAL..........................................    (5,125,000,000)
                                                      ==================
Additional New Resources:
    Rivers and Harbors Contributed Funds.............   \3\ 369,000,000
    Coastal Wetlands Restoration Trust Fund..........    \4\ 86,000,000
    Permanent Appropriations.........................         9,000,000
                                                      ------------------
      TOTAL ADDITIONAL NEW RESORCES..................       464,000,000
                                                      ==================
      TOTAL PROGRAM FUNDING..........................     5,589,000,000
------------------------------------------------------------------------
\1\ Includes $85,000,000 from the Inland Waterways Trust Fund.
\2\ Includes $793,000,000 from the Harbor Maintenance Trust Fund and
  $43,000,000 in Special Recreation User Fees.
\3\ Cost Sharing contributions required by law for budgeted work
  financed 100 percent by non-Federal interest.
\4\ Transferred from the Sport Fish Restoration Account of the Aquatic
  Resources Trust Fund for planning, protection, and restoration of
  coastal wetlands in the State of Louisiana.


    Senator Dorgan. Mr. Salt, thank you very much. We 
appreciate your being here today.
    General Robert L. Van Antwerp, the Chief of Engineers for 
the U.S. Army Corps of Engineers. Thank you for being here, 
General. You may proceed.
    Let me just make the point that the written testimony that 
you have submitted will be made a part of the permanent record 
and you may summarize.
STATEMENT OF LIEUTENANT GENERAL ROBERT VAN ANTWERP, 
            CHIEF OF ENGINEERS
    General Van Antwerp. Thank you very much, Chairman Dorgan. 
It's great to see you again and thanks for the opportunity to 
testify on the fiscal year 2010 President's budget.
    I'd like to just set a couple of data points before I talk 
about the budget. For the Corps of Engineers, by the end of 
this year we'll have over $40 billion obligated under contract. 
It's the largest in the history of the Corps and we're 
celebrating our 234th birthday on June 16. So it is really a 
historic time in the Corps.
    In order to get this work done, we need to hire 3,300 
people, and we are about halfway there. For the Recovery Act, 
those will be temporary hires and contracts. For the regular 
program, of which of that $40 billion, $10 billion of that will 
be in the Civil Works area that will be under contract by the 
end of this year. So this is a very, very exciting time.
    A couple of other data points, the dams that are owned and 
operated by the Corps number 650. There are 10 of those dams 
that are in this budget for construction, for dam safety. We 
have over 12,000 miles of inland waterways that we're 
responsible for owning and operating. That really constitutes a 
lot of what enables the shipping industries to get goods to 
market.
    We have 241 lock chambers at 195 different sites. Most of 
those were built about 52 years ago. In fact, the average is 
52.5 years old for those lock chambers. So a lot of that O&M 
goes to getting at some of those facilities that greatly need 
that effort.
    We have 926 harbors that are maintained by the Corps of 
Engineers. The amount of dredging material on a given year 
averages over 200 million cubic yards. Of course, the disposal 
of that and the beneficial use of that dredged material is of 
great concern to us, and we want to use that in the most 
beneficial manner.
    We have over 11,000 miles of levees. Actually, that only 
constitutes about 16 percent of the levees in this country. 
Most of the Nation's levees are agricultural levees and others. 
But 16 percent of them are built and controlled by the Corps.
    We have 75 generating plants in hydropower. We generate 
about 24 percent of the U.S. hydropower.
    Then finally, just a data point, we had 370 million 
visitors to our project sites last year. It's really a great 
opportunity for recreation for the people of America.
    This is a performance-based budget. It completes 10 
projects, 4 in navigation, 6 are in flood and coastal storm 
damage reduction. Just broken down by percentage of this 
budget, 11 percent of the budget went for environmental things, 
35 percent for navigation, and 32 percent for flood and coastal 
storm damage reduction.
    In the construction program, it funds 93 construction 
projects, including the 10 dam safety that I mentioned, 9 
projects that address significant risk to human safety, and 8 
are project completions. There are five new starts in this 
budget.
    The O&M, as you've mentioned, is a 14 percent increase and 
this is much needed because of the age of a lot of those 
facilities.
    I want to give just a quick update on New Orleans. We're on 
track to make the 2011 hurricane season with the 100-year storm 
protection.
    Just a quick word on Iraq and Afghanistan, over the course 
of the years we have deployed more than 10,000 people over 
there. A couple of weeks ago we had our first civilian death. 
So there has been mourning, but we are taking care of that 
family and doing what's right there.

                           PREPARED STATEMENT

    Finally on the Recovery and Reinvestment Act, we anticipate 
by the end of this year, September 30, 2009, we'll have 45 
percent of that $4.6 billion obligated. It constitutes more 
than a thousand contract actions altogether.
    Sir, thank you for the opportunity to be here this morning 
and I look forward to the questions.
    [The statement follows:]
      Prepared Statement of Lieutenant General Robert Van Antwerp
    Mr. Chairman and distinguished members of the subcommittee, I am 
honored to be testifying before your subcommittee today, along with the 
Acting Assistant Secretary of the Army (Civil Works), Mr. Terrence 
Salt, on the President's fiscal year 2010 budget for the United States 
Army Corps of Engineers' Civil Works Program.
    My statement covers the following 5 topics:
  --Summary of Fiscal Year 2010 Program Budget
  --Investigations Program
  --Construction Program
  --Operation and Maintenance Program
  --Value of the Civil Works Program to the Nation
               summary of fiscal year 2010 program budget
Introduction
    The fiscal year 2010 Civil Works budget is a performance-based 
budget, which makes the best use of available funds through a focus on 
the projects and activities that provide the highest economic and 
environmental returns on the Nation's investment or address significant 
risk to human safety. The Civil Works budget consists of a 
discretionary funding request of $5.125 billion and mandatory funding 
of $464 million, for a total direct program of $5.589 billion. In 
addition, Reimbursable Program funding, work that the Corps does for 
other agencies and entities with those agencies' and entities' funds, 
will be approximately $2.5 billion.
Direct Program
    The budget reflects the administration's commitment to the sound 
management of the Nation's water resources. The budget incorporates 
objective performance-based metrics for the construction and the 
operation and maintenance programs, and for proposed projects 
undergoing preconstruction engineering and design. It provides a high 
level of funding for maintenance, with a focus on those facilities that 
are of central importance to the Nation. It provides funding for the 
regulatory program to protect the Nation's waters and wetlands, and 
supports restoration of aquatic ecosystems. Additionally, it emphasizes 
the need to fund emergency preparedness and training activities for the 
Corps as part of the regular budget process.
Reimbursed Program
    Through the Interagency and Intergovernmental Services Program we 
help non-DOD Federal agencies, State, local, and tribal governments, 
and other countries with technical assistance in the areas of planning, 
engineering and construction. Rather than develop an internal workforce 
to oversee large design and construction projects, these entities 
utilize the skills and talents that we bring to our own Civil Works and 
Military Program missions. Our support is primarily through the 
development of contracts with private sector firms to perform technical 
assistance and management of engineering, environmental, and 
construction projects. This portion of our work is totally reimbursed 
by the agencies and entities that seek our assistance.
    Currently, we provide reimbursable support for about 70 Federal 
agencies and several State and local governments. Total reimbursement 
for such work in fiscal year 2010 is projected to be approximately $2.5 
billion. The exact amount will depend on the extent of fiscal year 2010 
assignments.
                         investigations program
    The budget for the investigations program would enable the Corps to 
evaluate and design the future projects that are most likely to be 
high-performing, within the Corps three main missions: Commercial 
navigation, flood and storm damage reduction, and aquatic ecosystem 
restoration. The budget includes $100 million for these and related 
activities in the Investigations account and $2.084 million in the 
Mississippi River and Tributaries account.
    This year the budget includes three new watershed studies, Ocmulgee 
River Basin Watershead, Georgia; Green River Watershed, Kentucky; and 
St. Louis Missouri River Watershed, Missouri; and a study addressing 
Access to Water Data. The budget also includes $2 million for a high-
priority, interagency evaluation of the Nation's vulnerability to 
damage from flooding, the Water Resources Priority study, as authorized 
in section 2032 of the Water Resources Development Act of 2007 (WRDA 
2007).
                          construction program
    The fiscal year 2010 budget includes $1.718 billion in 
discretionary funding in the Construction account and $87.343 million 
in the Mississippi River and Tributaries account to further this 
objective.
    The budget funds 93 construction projects, including 10 dam safety 
assurance, seepage control, and static instability correction projects, 
9 projects that address a significant risk to human safety, and 8 
project completions. Also, the budget provides significant funding for 
Corps aquatic ecosystem restoration efforts in South Florida including 
the Everglades, and in the Columbia River Basin and the Missouri River 
Basin, where this work supports the continued operation of Corps of 
Engineers multi-purpose projects by meeting the requirements of the 
Endangered Species Act.
    This budget includes funding for five new, high performing, 
construction projects. These include Washington, DC and vicinity flood 
risk reduction project; the Deep Creek Bridge Replacement, Virginia 
project on the Atlantic-Intercostal Waterway; the Norfolk Harbor, 
Craney Island, Virginia project; the Kansas City, Missouri and Kansas 
City, Kansas flood risk reduction project; and the Napa River Salt 
Marsh, California environmental restoration project.
    The budget uses objective performance measures to establish 
priorities among projects, and through continued proposed changes in 
the Corps contracting practices, that will also increase control over 
future costs. The performance measures used include the benefit-to-cost 
ratios for projects whose primary outputs are economic and are measured 
by economic returns. The selection process also gives priority to dam 
safety assurance, seepage control, static instability correction, and 
to projects that address a significant risk to human safety. Under each 
of these criterions, resources are allocated based on performance. This 
approach significantly improves overall program performance.
                   operation and maintenance program
    As soon as the Corps constructs a project, the infrastructure 
begins to age. Generally, with periodic maintenance, we can operate our 
facilities for many years. The budget supports our continued 
stewardship of this infrastructure by focusing funding on key 
infrastructure that is of central importance to the Nation.
    The Operation and Maintenance (O&M) program for the fiscal year 
2010 budget includes $2.504 billion in the O&M account and an 
additional $158.573 million under the Mississippi River and Tributaries 
program. The Corps used objective performance criteria to allocate 
operation and maintenance funds to facilities. These criteria 
considered both the condition of the project and the potential 
consequences for project performance if the O&M activity is not 
undertaken in the 2010 budget. The focus is on the maintenance of key 
commercial navigation, flood and storm damage reduction, hydropower, 
and other facilities. Specifically, the operation and maintenance 
program supports completed works owned or operated by the Corps of 
Engineers. Other work to be accomplished includes dredging, repair, 
aquatic plant control, removal of sunken vessels, monitoring of 
completed coastal projects, and operation of structures and other 
facilities, as authorized in the various River and Harbor, Flood 
Control, and Water Resources Development Acts.
             value of the civil works program to the nation
    We are privileged to be a part of an organization that directly 
supports the Nation's infrastructure. The way in which we manage our 
water resources can improve the quality of our citizens' lives and the 
environment in which we live.
    For example, Corps personnel from across the Nation continue to re-
construct and improve the storm damage reduction system for New 
Orleans. Their work will reduce the risk of damage from future storms 
to people and communities.
Research and Development
    The Research and Development Program for the Civil Works Program 
provides innovative engineering products, some of which can have 
applications in the private sector and in the military infrastructure 
sphere as well. By creating products that improve the efficiency and 
competitiveness of the Nation's engineering and construction industry 
and providing more cost-effective ways to operate and maintain 
infrastructure, Civil Works program research and development 
contributes to the national economy.
                               conclusion
    The Corps of Engineers is committed to staying at the leading edge 
of service to the Nation. We're committed to change that ensures an 
open, transparent, and performance-based Civil Works Program.
    Thank you, Mr. Chairman and members of the subcommittee. This 
concludes my statement.

    Senator Dorgan. General, thank you. We appreciate your 
being here and your testimony.

                       DEPARTMENT OF THE INTERIOR

                         Bureau of Reclamation

STATEMENT OF DEANNA ARCHULETA, ACTING ASSISTANT 
            SECRETARY FOR WATER AND SCIENCE
ACCOMPANIED BY REED R. MURRAY, PROGRAM DIRECTOR, CENTRAL UTAH PROJECT 
            COMPLETION ACT OFFICE

    Senator Dorgan. Next we'll hear from Acting Assistant 
Secretary Deanna Archuleta. Thank you very much. You may 
proceed.
    Ms. Archuleta. Thank you. Thank you, Mr. Chairman, 
Senators, subcommittee members. Thank you for the opportunity 
to appear before you in support of the President's fiscal year 
2010 budget request for Bureau of Reclamation and the Central 
Utah Project Completion Act. With me today are Mike Connor, 
Commissioner of Bureau of Reclamation, and additionally we have 
Reed Murray, the Director of the Central Utah Project 
Completion Act office, should you have any questions regarding 
that program.
    I have submitted written testimony which presents a 
detailed summary of the Department's appropriation request. 
Today I would like to highlight the Department's 2010 
priorities and touch briefly on Reclamation and the Central 
Utah Project request, before turning it over to Commissioner 
Connor for a more detailed discussion on Reclamation's request.
    The Department of the Interior's mission is complex and 
multifaceted. Our program's missions stretch from the North 
Pole to the South Pole, across 12 different time zones, from 
the Caribbean to the Pacific Rim. Nearly every American lives 
within 1 hour driving distance from either our lands, our 
waters, all of which are managed by the Department of the 
Interior. As Secretary Salazar has said, the Department of the 
Interior is truly the Department of America.
    Our fiscal year 2010 budget of $12.1 billion will position 
us to provide enduring benefits to the American people by 
maximizing our opportunities to realize the potential of our 
lands, our waters, our resources, and our people. As you know, 
the Department has released a detailed implementation plan for 
$3 billion appropriated in the American Reinvestment and 
Recovery Act, which provided $1 billion for programs funded by 
this subcommittee. The Department, Reclamation, and the Central 
Utah Project Completion Act programs are moving expeditiously 
with our customers to invest those funds, which will quickly 
provide jobs and stimulate the economy.
    The fiscal year 2010 budget request for the Department of 
the Interior focuses on creating new energy frontiers, tackling 
climate change impacts, including the emphasis on water 
conservation, protecting America's treasures, and establishing 
a 21st Century Youth and Conservation Corps. And our fiscal 
year 2010 budget also assumes commitment to restoring the 
integrity of our Government to Government relationships with 
our Indian tribes and empowering our Native American 
communities.
    This is an overwhelming need to tackle climate change 
impacts. The key aspects of climate impacts, particularly in 
the West, are an increased variability of our water supplies. 
Our fiscal year 2010 Reclamation budget is proposing water 
conservation initiatives of $46 million, which will take 
significant steps toward addressing western water issues 
through three ongoing programs: an expansion of our water 
conservation challenge grant program, Reclamation's basin study 
program, and the title 16 water reclamation and reuse program. 
Through these programs, Reclamation will provide competitive 
grants for water marketing and conservation projects, basin 
wide planning studies that will address impacts of climate 
change and continued funding of water reuse and recycling 
projects.
    With regards to the programs under the jurisdiction of this 
subcommittee, the fiscal year 2010 request for Bureau of 
Reclamation and the Central Utah Project Completion Act is $1.1 
billion. I will defer to Commissioner Connor to discuss the 
details of Reclamation's request, but note that their 2010 
proposals support managing, developing, protecting water and 
the related resources in an environmentally and economically 
sound manner.
    Reclamation continues to strive for the highest levels of 
service to the American people and the highest levels of 
management excellence.
    The request for implementation for the Central Utah Project 
Completion Act is $42 million. The fiscal year 2010 funding 
provides funding for design, construction, and features of the 
Utah lake system, continues to implement water management 
improvement projects, as well as implementing fish, wildlife, 
and recreation mitigation, as well as other conservation 
projects.
    Through the Department's fiscal year 2010, we have a 
tremendous opportunity to improve the future of our children 
and our grandchildren with wise investments in clean energy, 
climate impacts, treasured landscapes, our youth, and the 
empowerment of Native Americans.

                          PREPARED STATEMENTS

    I appreciate the strong support this subcommittee has given 
the Department, in particular to the Bureau of Reclamation and 
to the Central Utah Project. I look forward to working with all 
of you in advancing those goals of all of our programs and 
would be happy to answer any questions you may have.
    [The statements follow:]
                 Prepared Statement of Deanna Archuleta
    Mr. Chairman, Mr. Bennett, and members of this subcommittee, I am 
pleased to appear before this subcommittee today to discuss the 
President's fiscal year 2010 budget for the Department of the Interior 
and to update you on progress in implementing our fiscal year 2009 
programs.
    The Department of the Interior's mission is complex and 
multifaceted. Our programs and mission stretch from the North Pole to 
the South Pole and across 12 time zones, from the Caribbean to the 
Pacific Rim. Our extensive mandate rivals any government agency in its 
breadth and diversity--and its importance to the everyday lives of 
Americans.
    Interior manages 500 million acres or about 1 in every 5 acres in 
the United States, including 391 national park units, 550 wildlife 
refuges, the 27 million-acre National Landscape Conservation System, 
and other public lands. These places are treasured landscapes and serve 
as economic engines for tourism and growth opportunities for 
recreation, wildlife conservation, and responsible resource use.
    The Department's public lands and 1.7 billion acres on the Outer 
Continental Shelf supply nearly one-third of the Nation's domestic 
energy production. These resources are vital to the Nation's energy 
security and provide economic returns to the Nation. In fiscal year 
2010, an estimated $14.0 billion in revenues will be generated from 
these lands and waters.
    The Department fulfills its special responsibilities to Native 
Americans managing one of the largest land trusts in the world 
including over 56 million acres held in trust for Indian tribes and 
individual Indians, over $3.4 billion of funds held in over 2,700 
tribal trust accounts, and over 380,000 open individual Indian Money 
accounts. The Bureau of Indian Education school system provides 
services to approximately 42,000 students in 23 States attending 183 
elementary and secondary schools and supports 30 tribally controlled 
community colleges, universities, and post-secondary schools.
                           the first 100 days
    Recently, President Obama and Secretary Salazar marked their first 
140 days in office. It has been an exciting time as Secretary Salazar 
has begun to change how the Department of the Interior does business. 
He has already implemented changes to improve accountability, 
transparency, and ethical reform; established a vision for a new energy 
frontier that will help to produce and transmit renewable energy from 
our public lands; set an agenda for protecting America's open spaces 
and treasured landscapes with stewardship based on sound science; began 
strengthening the government-to-government relationship with Indian 
tribes; announced a new 21st Century Youth Conservation Corps; and 
implemented the President's economic recovery plan.
    The Department has released detailed implementation plans for $3 
billion appropriated in the American Recovery and Reinvestment Act that 
could significantly improve the safety and energy efficiency of our 
facilities; the reliability of our water infrastructure; and habitat 
for wildlife including endangered species.
    Thanks to your support, the Recovery Act provided $1 billion for 
the programs funded by this subcommittee.
    The Department, Reclamation and the Central Utah Project Completion 
Act program are moving expeditiously with our customers to invest funds 
appropriated by the Recovery Act in projects which will quickly provide 
jobs and stimulate the economy. As Secretary Salazar announced on April 
15, $945.2 million is being devoted to Reclamation recovery projects in 
six program investments areas:
  --Meeting Future Water Supply Needs--$450.9 million
  --Infrastructure Reliability and Safety--$164.5 million
  --Environmental/Ecosystem Restoration--$236.3 million
  --Green Buildings--$13.5 million
  --Water Conservation Initiative (Challenge Grants)--$40.0 million
  --Emergency Drought Relief--$40.0 million
    As permitted by the Recovery Act, $50.0 million is being 
transferred to the Department's Central Utah Project Completion Act for 
work that includes continuing construction of both the Spanish Fork 
Canyon Pipeline and the Spanish Fork--Provo Reservoir Canal Pipeline, 
as well as the construction of the Big Springs Fish Hatchery for the 
Ute Indian Tribe. Finally, as permitted by the statute, $4.8 million is 
being set aside for management and oversight.
                overview of the fiscal year 2010 budget
    The fiscal year 2010 Interior budget request for current 
appropriations is $12.1 billion, $802.0 million or 7.1 percent above 
the level enacted by Congress for fiscal year 2009. This comparison 
excludes $3 billion enacted in the Recovery Act. Permanent funding that 
becomes available as a result of existing legislation, without further 
action by the Congress, will provide an additional $6.1 billion, 
providing a total of $18.2 billion for Interior in fiscal year 2010.
    The request for the Bureau of Reclamation and the Central Utah 
Project Completion Act, funded under the jurisdiction of this 
subcommittee, is $1.2 billion for net discretionary funding. This is a 
decrease of $37.4 million below the level enacted for fiscal year 2009. 
This comparison excludes $1 billion in enacted Recovery Act funding. 
The fiscal year 2010 Reclamation discretionary budget request is $985.6 
million in current appropriations and the request for the Central Utah 
Project is $42.0 million, the same as fiscal year 2009 enacted. The 
decreases in Reclamation are primarily in title XVI and rural water, 
areas that received significant increases through the Recovery Act 
($135 million for title XVI and $200 million for rural water projects) 
and through earmarks in fiscal year 2009. These decreases are also 
somewhat offset by fiscal year 2010 increases for the new Water 
Conservation Initiative, the dam safety program, the Central Valley 
Project, and increases in several other programs.
                        tackling climate impacts
    There is an overwhelming need to tackle climate change impacts. 
With lands that range from the Arctic to the Everglades, Interior's 
managers expect to observe the sometimes dramatic effects of a changing 
climate, including thawing permafrost and melting glaciers, changes in 
precipitation patterns, and sea level rise. In this dynamic context, 
Interior managers need information, tools, and resources to measure, 
understand, and respond to on-the-ground impacts. As the largest land 
manager in the Nation, Interior is positioned to pioneer adaptive 
management approaches to address the effects of climate change.
                     water conservation initiative
    A key aspect of climate impacts, particularly in the West, is 
increased variability of water supplies. The request includes funding 
for a comprehensive water conservation program focused on expanding and 
stretching limited water supplies in the West to reduce conflict, 
facilitate solutions to complex water issues, and meet the growing 
needs of expanding municipalities, the environment, and agriculture.
    The Department of the Interior has an important role to play in 
providing leadership and assistance to States, tribes, and local 
communities to address these competing demands for water. In fiscal 
year 2010, Reclamation is proposing a Water Conservation Initiative 
(WCI), at $46 million, which will take a significant step toward 
addressing western water issues through three ongoing programs. The WCI 
includes: (1) an expanded Water Conservation Challenge Grant Program 
(increased by $26 million over fiscal year 2009); (2) Reclamation's 
Basin Study Program; and (3) the title XVI Water Reclamation and Reuse 
Program. Through these programs, Reclamation will provide competitive 
grants for water marketing and conservation projects, and basin-wide 
planning studies that will provide projections of future water supply 
and demand on a basin-wide scale and address the impacts of climate 
change and drought.
    The Bureau of Reclamation's fiscal year 2010 net discretionary 
budget request of $1.0 billion is offset by $35.1 million in funds from 
the Central Valley Project Restoration Fund. This request supports 
Reclamation's mission of managing, developing, and protecting water and 
related resources in an environmentally and economically sound manner 
in the interest of the American people. The budget emphasizes reliable 
water delivery and power generation by requesting more than $427.2 
million to fund operation, maintenance, and rehabilitation activities 
at Reclamation facilities.
    To address important infrastructure funding needs, the budget 
includes an increase of $13.6 million for the Bureau of Reclamation's 
Safety of Dams program. This will allow the Bureau to address 
corrective actions at Folsom Dam and other high priority projects.
    Reclamation is currently developing programmatic criteria for a 
Rural Water Program as required under the Reclamation Rural Water 
Supply Act of 2006. Reclamation expects to begin appraisal level 
studies in fiscal year 2009. The fiscal year 2010 budget includes $64.0 
million for seven ongoing authorized rural water projects. Within this, 
$48.7 million supports the administration's commitment to complete 
seven ongoing authorized rural water projects including ongoing 
municipal, rural and industrial systems for the Pick Sloan-Missouri 
Basin Program--Garrison Diversion Unit in North Dakota; the Mni Wiconi 
and Perkins County in South Dakota, Lewis and Clark in South Dakota, 
Iowa, and Minnesota; Ft. Peck and North Central Mountain/Rocky Boys in 
Montana; and Jicarilla in New Mexico. Funding for the required 
operations and maintenance component of rural water projects is $15.3 
million for fiscal year 2010. For the construction component, 
Reclamation allocated funding based on objective criteria that gave 
priority to projects nearest to completion and projects that serve 
tribal needs.
    The $54.2 million budget for Animas-La Plata provides for 
directional drilling and pipeline construction on the Navajo Nation 
Municipal Pipeline, the first fill of Lake Nighthorse and construction 
of County Road 211 relocation will continue.
    The Bureau will complete removal of the Savage Rapids Dam in fiscal 
year 2010. The budget includes $23.7 million for the Middle Rio Grande 
project to continue to focus on the protection and recovery of the 
silvery minnow and southwestern willow flycatcher.
    The fiscal year 2010 request includes $2.0 million for the Bureau 
of Reclamation and $2.0 million for the U.S. Fish and Wildlife Service 
to further assess the costs and benefits of removing PacifiCorp's four 
dams on the Lower Klamath River. These studies will be conducted by 
Reclamation and FWS in coordination with BLM, BIA, the U.S. Forest 
Service, and the National Oceanic and Atmospheric Administration's 
National Marine Fisheries Service. The results of the study will be 
used by the Federal Government to determine if the potential benefits 
outweigh the costs of dam removal. Consideration will be given to the 
liabilities, environmental risks, and effects on downstream resources 
resulting from dam removal.
    The budget request for CALFED is $31.0 million, continuing 
implementation of priority activities that will resolve water conflicts 
in the Bay-Delta of California. Funds will be used for water storage, 
the conveyance program, water recycling and conservation, the science 
program, water quality assurance investigations, ecosystem restoration 
projects, and the oversight function to ensure program balance and 
integration.
        pick sloan legislative proposal (bureau of reclamation)
    The fiscal year 2010 budget request for Reclamation is accompanied 
by a proposal that will affect receipt levels in fiscal year 2010 and 
in future years. This proposal will be transmitted separately from the 
budget for consideration by congressional authorizing committees. The 
proposal is for a reallocation of the repayment of capital costs for 
the Pick-Sloan Missouri Basin program.
                               conclusion
    Thank you for the opportunity to testify on behalf of the 
President's fiscal year 2010 budget request for the Department of the 
Interior. I want to reiterate my appreciation for the long-standing 
support of this subcommittee. Our fiscal year 2010 budget will--in its 
entirety--make a dramatic difference for the American people. We have a 
tremendous opportunity to improve the future for our children and 
grandchildren with wise investments in clean energy, climate impacts, 
treasured landscapes, our youth, and the empowerment of Native 
Americans. This concludes my overview of the fiscal year 2010 budget 
proposal for the Department of the Interior and my written statement. I 
will be happy to answer any questions that you may have.
                                 ______
                                 
                  Prepared Statement of Reed R. Murray
    My name is Reed Murray. I serve as the Program Director of the 
Central Utah Project Completion Act Office under the Assistant 
Secretary--Water and Science in the Department of the Interior. I am 
pleased to provide the following information about the President's 
fiscal year 2010 budget for implementation of the Central Utah Project 
Completion Act.
    The Central Utah Project Completion Act, titles II-VI of Public Law 
102-575, provides for completion of the Central Utah Project (CUP) by 
the Central Utah Water Conservancy District. The act also authorizes 
funding for fish, wildlife, and recreation mitigation and conservation; 
establishes an account in the Treasury for deposit of these funds and 
other contributions; establishes the Utah Reclamation Mitigation and 
Conservation Commission to coordinate mitigation and conservation 
activities; and provides for the Ute Indian Rights Settlement.
    The act provides that the Secretary may not delegate his 
responsibilities under the act to the Bureau of Reclamation. As a 
result, the Department has established an office in Provo, Utah, with a 
Program Director to provide oversight, review and liaison with the 
District, the Mitigation Commission, and the Ute Indian Tribe, and to 
assist in administering the responsibilities of the Secretary under the 
act.
    The 2010 request for the Central Utah Project Completion Account 
provides $42.0 million for use by the District, the Mitigation 
Commission, and the Department to implement titles II-IV of the act. 
The project is currently scheduled to be completed by 2021.
    The fiscal year 2010 request for the District includes $37.7 
million to fund the designs, specifications, land acquisition, and 
construction of the Utah Lake System ($30.8 million); to implement 
water conservation measures ($5.9 million); and to implement 
groundwater conjunctive use projects ($1.0 million).
    The request includes $1.5 million for the Mitigation Commission. 
Approximately $1.2 million will be used to implement the fish, 
wildlife, and recreation mitigation and conservation projects 
authorized in title III. The Commission will use the remaining portion 
($271,200) for completing mitigation measures committed to in pre-1992 
Bureau of Reclamation planning documents.
    Finally, the request includes $2.8 million for the Program Office 
for operation and maintenance costs associated with instream flows; 
$1.1 million for fish hatchery facilities; and $1.7 million for program 
administration.
    In conclusion, we appreciate the opportunity to testify before the 
subcommittee and would be happy to respond to any questions.

    Senator Dorgan. Madam Secretary, thank you very much for 
being here.
    Commissioner Connor, welcome. You may proceed.
STATEMENT OF MICHAEL L. CONNOR, COMMISSIONER
ACCOMPANIED BY BOB WOLF, DIRECTOR OF PROGRAM AND BUDGET

    Mr. Connor. Thank you, Mr. Chairman.
    Mr. Chairman, Senator Bond, Senator Alexander, thank you 
for the opportunity to appear before you today in support of 
the President's fiscal year 2010 budget request for the Bureau 
of Reclamation. With me today is Bob Wolf, who is our Director 
of Program and Budget.
    Mr. Chairman, I'd just like to say it's very much a 
pleasure for me to be here at the witness table today. But as I 
told Roger and Scott earlier, I'm soon to find out that it's 
much more comfortable to do these hearings behind the dais, I 
think, than where I am today.
    The fiscal year 2010 discretionary budget request for 
Reclamation is $986 million. I have submitted written 
testimony. In the interest of time, as well as the fact that as 
a former Senate staff member, I should know the value of 
brevity, I'll quickly summarize three areas of the budget that 
we want to focus on. I also want to talk a little bit about 
Secretary Salazar's Water Conservation Initiative, which the 
Assistant Secretary just mentioned.
    The first area is maintaining our existing infrastructure. 
Reclamation's budget reflects the need to maintain our existing 
portfolio of projects. Reclamation has 476 dams, 348 
reservoirs, 58 power plants, and many other water delivery 
facilities. Much of that infrastructure is at least 50 years or 
older and its proper operation and maintenance is our top 
priority.
    About $427 million of Reclamation's discretionary budget is 
dedicated to making sure that our facilities are operated and 
maintained in a safe and reliable fashion. This is a 21 percent 
increase just over the last 2 years, but providing adequate 
funding for these activities continues to be one of 
Reclamation's highest priorities.
    Part of that program is our dam safety program. In 
Reclamation's infrastructure portfolio there are 371 dams and 
dikes that could result in loss of life if they were to fail. 
These structures form the core of Reclamation's Dam Safety 
Program. A total of $102 million is requested for this program, 
which is about a $14 million increase over the 2009 enacted 
level.
    The second area I want to focus on is new water 
development. Reclamation continues to be actively involved in 
programs to develop new water supplies and infrastructure. 
Examples of these ongoing water development activities in the 
fiscal year 2010 budget request include: the Animas-La Plata 
project, for which there is $54 million allocated to continue 
implementation of the Colorado Ute Settlement Act and Rural 
water programs.
    The budget includes $64 million in fiscal year 2010 funding 
for water systems to deliver surface water to Indian and non-
Indian communities in the Great Plains Region. These projects 
provide good quality water to rural areas where existing water 
supplies are either nonexistent or of very poor quality. The 
request includes funding for seven ongoing authorized rural 
water projects and funding for the O&M requirements that 
Reclamation has for the tribal water features is $15.3 million 
and about $49 million supports the administration's commitment 
to completing construction of the Mni Wiconi Project in South 
Dakota, the Garrison Unit in North Dakota, Lewis and Clark in 
South Dakota, Iowa, and Minnesota, Fort Peck in Montana, and 
for the first time we have included a budget request for 
Perkins County in South Dakota, Jicarilla Apache Project in New 
Mexico, and the North Central Montana Rocky Boys Project in 
Montana.
    Overall, the request for rural water projects will continue 
the substantial investment made in recent years, including the 
$200 million in Recovery Act funding that Reclamation is 
currently in the process of allocating.
    The fiscal year 2010 budget also requests $2.3 million for 
the establishment of the formal rural water supply program 
required under title 1 of the Rural Water Supply Act of 2006 
and we hope to get that program up and going by fall of this 
year.
    The third area is the environmental and ecosystem 
restoration programs that Reclamation has. Reclamation works to 
meet the increasing water demands of the West while protecting 
the environment. Reclamation has an established role in 
restoring aquatic habitat that is impacted by historic 
development and is working on a large number of restoration 
programs that are necessary to maintain compliance with the 
Endangered Species Act.
    Accordingly, the 2010 budget continues focus on these 
challenges, including increases for several programs addressing 
environmental issues. Some examples include a $15 million 
request for the Red Bluff Pumping Plant, which is part of the 
Central Valley Project in California. Additionally, you will 
see an increase in the Lower Colorado River Operations Program 
to fund the multi-species conservation program which is key to 
ESA compliance in the lower Colorado River.
    Finally, as I mentioned, I want to talk a little bit about 
Secretary Salazar's water conservation initiative. It's one of 
the most significant and exciting elements of our fiscal year 
2010 budget. In fiscal year 2010, Reclamation will implement 
the water conservation initiative to expand and stretch limited 
water supplies in the West, to reduce conflict, facilitate 
solutions to complex water issues, and meet the growing needs 
of municipalities, the environment, and agriculture.
    The fiscal year 2010 budget provides $46 million in funding 
for the water conservation initiative. This includes a $26 
million increase in challenge grants for fiscal year 2010 and 
Reclamation will use these--will provide these grants on a cost 
shared basis in the areas--to facilitate water transfers 
between willing sellers and buyers, water efficiency and 
conservation projects, and projects that improve water 
management by increasing operational flexibility in our 
systems, and finally, pilot and demonstration projects that 
demonstrate the viability of treating and using brackish ground 
water, sea water, or impaired waters within a specific locale.
    Within the funding requested in 2010, Reclamation will be 
able to fund at least 110 new water conservation projects. 
These projects will be required to be completed within 2 years 
from the date of funding and therefore will have a near-term 
impact on water savings. The initiative also incorporates the 
basin study program, in which Reclamation will work with State 
and local partners to initiate comprehensive water supply and 
demand studies in the West.
    A final piece for the water conservation initiative is 
funding for the title XVI Water Reclamation and Reuse Program. 
The funding requested in the 2010 budget is in addition to a 
substantial amount of funding provided by Congress in the 
Recovery Act.

                           PREPARED STATEMENT

    Mr. Chairman, please allow me to express my sincere 
appreciation for the continued support that this subcommittee 
has provided Reclamation.
    This completes my statement. I'll be happy to answer 
questions at the appropriate time.
    [The statement follows:]
                Prepared Statement of Michael L. Connor
    Thank you, Mr. Chairman, Mr. Bennett and members of the 
subcommittee, for the opportunity to appear before you in support of 
the President's fiscal year 2010 budget request for the Bureau of 
Reclamation. With me today is Bob Wolf, Director of Program and Budget.
    I appreciate the time and consideration this subcommittee gives to 
reviewing and understanding Reclamation's budget and its support for 
the program. Reclamation works hard to prioritize and define our 
program in a manner that serves the best interest of the public and 
those who rely on Reclamation for their water and power.
    Our fiscal year 2010 request continues support to activities that 
deliver water and generate hydropower, consistent with applicable State 
and Federal law, in an environmentally responsible and cost-effective 
manner.
    The proposed funding will allocate funds to projects and programs 
based on objective and performance-based criteria to most efficiently 
implement Reclamation's programs and its management responsibilities 
for the water and power infrastructure in the West. The President's 
budget request emphasizes the following principle: enhancing management 
of our water infrastructure and programs in the West by eliminating 
program redundancies, leveraging partnerships with our western 
stakeholders and maximizing opportunities for competitive processes.
    The fiscal year 2010 request for Reclamation totals $1.0 billion in 
gross budget authority. This takes into consideration the effects of 
the legislation that, beginning in fiscal year 2010, redirects an 
estimated $5.6 million for Friant surcharges from the Central Valley 
Project Restoration fund to the San Joaquin River Restoration Fund. The 
request also is partially offset by discretionary receipts in the 
Central Valley Project Restoration Fund of $35.1 million. The resulting 
net discretionary request for Reclamation is $985.6 million.
                      water and related resources
    The fiscal year 2010 request for Water and Related Resources is 
$893.1 million. The request for Water and Related Resources includes a 
total of $465.9 million for water and energy, land, and fish and 
wildlife resource management activities (which provides for 
construction and management of Reclamation lands, and actions to 
address the impacts of Reclamation projects on fish and wildlife). The 
request also includes $427.2 million for facility operations, 
maintenance, and rehabilitation activities which is used to ensure 
sound and safe ongoing operations. Adequate funding for facility 
operations, maintenance, and rehabilitation continues to be one of 
Reclamation's highest priorities. Reclamation continues to work closely 
with water users and other stakeholders to ensure that available funds 
are used effectively. These funds are used to allow the timely and 
effective delivery of project benefits; ensure the reliability and 
operational readiness of Reclamation's dams, reservoirs, power plants, 
and distribution systems; and identify, plan, and implement dam safety 
corrective actions and site security improvements.
Highlights of the Fiscal Year 2010 Request for Water and Related 
        Resources
    I would like to share with the subcommittee several highlights of 
the Reclamation budget, including one of the most significant and 
exciting elements of our 2010 request, the Water Conservation 
Initiative. In fiscal year 2010, Reclamation will implement the Water 
Conservation Initiative focused on expanding and stretching limited 
water supplies in the West to reduce conflict, facilitate solutions to 
complex water issues, and to meet the growing needs of expanding 
municipalities, the environment, and agriculture.
    Water Conservation Initiative (WCI) ($46.0 million).--Of this 
amount, $37.2 million appears as the Water Conservation Initiative line 
item. The remaining $8.8 million is funded in specific title XVI water 
reclamation and reuse projects.
    The American West is now the fastest growing region of the country 
and faces serious water challenges. Competition for finite water 
supplies, including water for environmental needs, is increasing as the 
need for water continues to grow. At the same time, extended droughts 
are impacting water availability and climate change is likely to 
compound the situation. With an increase of $26 million in fiscal year 
2010, Reclamation will help address these concerns by providing cost-
shared grants, on a competitive basis, through the Water Conservation 
Initiative. The Water Conservation Challenge Grants (previously Water 
for America Challenge Grants) provide the following types of on-the-
ground projects: (1) Water marketing projects with willing sellers and 
buyers, including water banks that transfer water to other uses to meet 
critical needs for water supplies; (2) water efficiency and 
conservation projects that allow users to decrease diversions and to 
use or transfer the water saved; (3) projects that improve water 
management by increasing operational flexibility (constructing aquifer 
recharge facilities or making system optimization and management 
improvements); and (4) pilot and demonstration projects that 
demonstrate the technical and economic viability of treating and using 
brackish groundwater, seawater, or impaired waters within a specific 
locale. All grant proposals will be evaluated using criteria that give 
priority to projects that save the most water, facilitate transfers to 
new uses, address endangered species and other environmental issues, 
improve energy efficiency, conserve Reclamation project water, and 
exceed the minimum 50 percent non-Federal cost-share requirement.
    With the funding requested in fiscal year 2010, Reclamation will be 
able to fund at least 110 new water conservation projects. The WCI 
competitive grant projects will be required to be completed within 2 
years from the date of funding. As a result, projects funded under the 
WCI will have a near-term impact on water savings. Reclamation believes 
that water conservation, use of markets, and improved efficiency are 
crucial elements of any plan to address western water issues. With the 
WCI grants, Reclamation will take an important step towards increasing 
conservation and efficiency on a West-wide basis.
    The WCI also incorporates the Basin Study Program in which 
Reclamation will work with State and local partners to initiate 
comprehensive water supply and demand studies in the West. Each study 
includes state of the art projections of future water supply and demand 
on a basin-wide scale; analysis of how the basin's existing water and 
power operations and infrastructure will perform in the face of 
changing water realities; and recommendations on how to optimize 
operations and infrastructure in the basin to supply adequate water in 
the future.
    The title XVI, Water Reclamation and Reuse Program also contributes 
to water conservation in the Western United States, and is included in 
the WCI. The request includes $9.0 million to make available cost-
shared funding for ongoing title XVI construction projects, research 
activities, and feasibility studies ($8.8 million directly supports 
named projects, $200,000 is used by the Commissioner's Office for 
administrative support of the program). Title XVI projects develop and 
supplement urban and irrigation water supplies through water reuse, 
thereby improving efficiency, providing flexibility during water 
shortages, and diversifying the water supply. There is also $3.0 
million for water reclamation funded in the California Bay-Delta 
program under the Water Use Efficiency activity.
    Other significant programs and highlights include:
    Animas-La Plata in Colorado and New Mexico ($54.2 million).--The 
fiscal year 2010 President's budget request will continue 
implementation of the Colorado Ute Settlement Act. This funding will 
provide for directional drilling and pipeline construction of the 
Navajo Nation Municipal Pipeline, the first fill of Lake Nighthorse, 
and construction of County Road 211 Relocation and other required 
relocations. In addition to construction funding, this request includes 
funding for operation and maintenance of improvements for wetland and 
wildlife mitigation lands associated with the project.
    Columbia/Snake River Salmon Recovery in Idaho, Oregon, Montana, and 
Washington ($18.0 million).--This program implements actions under both 
the 2000 Biological Opinion issued by FWS and section 7(a)(2) of the 
Endangered Species Act as required by the 2008 Biological Opinion 
issued in May 2008 by the National Marine Fisheries Services. The 
fiscal year 2010 President's budget request will enable Reclamation to 
address the requirements in the 2008 Biological Opinion for actions to 
enhance tributary spawning and rearing habitat to offset the effects of 
the Federal Columbia River Power System (FCRPS) hydro system operations 
on salmon and steelhead survival. It also will fund Reclamation's 
involvement with non-Federal parties located in Idaho, Oregon, and 
Washington to modify screens and remove instream diversion-related 
barriers. As required by the 2008 FCRPS Biological Opinion, it will 
fund Reclamation's participation in the implementation of real-time 
operational measures, system flood control, and Columbia Basin Project 
actions associated with ESA listed species.
    Klamath Project in Oregon and California ($25.0 million).--The 
fiscal year 2010 President's budget request will continue funding for 
Reclamation to collaborate with other Federal and State agencies, 
tribes and the public to develop a basin-wide recovery plan that 
addresses water supply, water quality, fish habitat, and fish 
populations.
    Klamath Dam Removal Study ($2.0 million).--The fiscal year 2010 
President's budget request includes $2.0 million for the Bureau of 
Reclamation and $2 million for the Fish and Wildlife Service (FWS) to 
further assess the costs and benefits of removing four privately-owned 
hydroelectric dams on the Lower Klamath River below the Federal 
project. The request will fund the study costs associated with 
preparing National Environmental Policy Act documentation. The FWS also 
has $2.0 million in its request to support these studies. These studies 
will be conducted by Reclamation and FWS in coordination with BLM and 
BIA, the U.S. Forest Service, and the National Oceanic and Atmospheric 
Administration's National Marine Fisheries Service. Reclamation also 
allocated $4.0 million in ARRA funding for these studies.
    Lower Colorado River Operations Program in California, Arizona and 
Nevada ($21.4 million).--The fiscal year 2010 President's budget 
request will provide funds for the work necessary to carry out the 
Secretary's responsibilities as water master of the lower Colorado 
River, including the development of the Shortage Guidelines and 
reservoir management strategies during low reservoir conditions. The 
fiscal year 2010 request funds measures under the multi-species 
conservation program to provide long-term Endangered Species Act 
compliance for lower Colorado River operations for both Federal and 
non-Federal purposes.
    Middle Rio Grande in New Mexico ($23.8 million).--The fiscal year 
2010 President's budget request will continue funding for endangered 
species activities and Reclamation's participation in the Middle Rio 
Grande Endangered Species Act Collaborative Program as well as repair 
of priority river maintenance sites.
    Platte River Endangered Species Recovery Program ($12.7 million).--
The President's fiscal year 2010 budget request for the Platte River 
Recovery Implementation Program is $12.7 million. The agreement for the 
program was signed by then Secretary Kempthorne and the Governors of 
Nebraska, Colorado and Wyoming in late 2006. Platte River habitat is 
essential to the recovery of the whooping crane, interior least tern, 
piping plover, and pallid sturgeon (all threatened or endangered 
species).
    Public Law 110-229 authorized the Secretary of the Interior, 
through Reclamation, and in partnership with the States of Wyoming, 
Nebraska, and Colorado, other Federal agencies, and other non-Federal 
entities to participate in the implementation of the Program for 
endangered species in the Central and Lower Plate River Basin and to 
modify Reclamation's Pathfinder Dam. No Federal appropriations are 
required to modify the Pathfinder Dam. Program activities include the 
acquisition of lands and water and contracting for habitat restoration 
projects.
    Research & Development ($12.9 million).--Reclamation's research and 
development program has two focus areas for fiscal year 2010: (1) 
Science and Technology (S&T) ($9.2 million) which includes funding for 
the development of new solutions and technologies which respond to 
Reclamation's operational needs with priorities in fiscal year 2010 for 
issues related to climate change and quagga mussels; and (2) the 
Desalination and Water Purification program ($3.7 million) which 
conducts desalination research, development and demonstrations for the 
purpose of converting unusable waters into useable water supplies. The 
research is conducted through competitive, merit-based cooperative 
agreements on a cost-shared basis.
    Rural Water Projects--Ongoing ($64.0 million).--This request 
includes funding for seven ongoing authorized rural water projects. The 
first priority for funding rural water projects is the required 
operations and maintenance component, which is $15.3 million for 2010. 
The budget also includes $48.7 million to support the administration's 
commitment to complete construction of ongoing rural water projects 
including ongoing municipal, rural and industrial systems for Mni 
Wiconi and Perkins County (SD), the rural water component of the 
Garrison Diversion Unit (ND), Fort Peck (MT), Jicarilla Apache 
Reservation (NM), Rocky Boys (MT), Perkins County and Lewis and Clark 
(SD, IA, MN). For the construction component, Reclamation allocated 
funding based on objective criteria that gave priority to projects 
nearest to completion and projects that serve tribal needs.
    Rural Water Program Development ($2.3 million).--On December 22, 
2006, the Rural Water Supply Act of 2006 was signed. The fiscal year 
2010 President's budget requests $2.3 million for title I of the 
statute that requires the Secretary to establish a formal rural water 
supply program for rural water projects in the 17 Western States. The 
act requires the establishment of programmatic and eligibility criteria 
for the rural water program along with other reporting requirements and 
criteria for appraisal and feasibility studies, and to establish clear 
guidelines for project development to help meet the water supply needs. 
Reclamation anticipates completing the final rule and beginning program 
implementation in late 2009.
    Savage Rapids in Oregon ($1.2 million).--The fiscal year 2010 
President's budget request will provide funds for completing the 
removal of the main portion of the Savage Rapids Dam to allow the 
Grants Pass Irrigation District to comply with a Federal court consent 
decree requiring the District to cease irrigation diversions. The 
project is expected to be completed in 2010. Removal of this irrigation 
diversion dam and the installation of pumping facilities allows the 
local farming community to continue irrigated agriculture and remove a 
migration barrier for the threatened Southern Oregon and Northern 
California coho salmon.
    Site Security ($28.9 million).--The President's 2010 budget request 
for site security helps to ensure the safety and security of the 
public, Reclamation's employees and key facilities. Funding will 
support all aspects of Bureau-wide security efforts including physical 
security upgrades at high risk critical assets, law enforcement, risk 
and threat analysis, personnel security, information security, security 
risk assessments and security-related studies, and guards and patrols.
    Under the provisions of section 513 of the Consolidated Natural 
Resources Act of 2008, Reclamation will collect $18.9 million in 
security-related operation and maintenance costs in 2010. Approximately 
60 percent of this amount is reimbursable through up-front revenues. 
Approximately 40 percent of this amount is appropriated and then 
reimbursed to projects through the normal operations and maintenance 
cost allocation process.
    Safety of Dams ($101.9 million).--The President's budget allows 
Reclamation to ensure that safety and reliability of Reclamation dams 
is one of the Bureau's highest priorities. The Dam Safety Program is 
critical to effectively manage risks to the downstream public, 
property, project, and natural resources. Of the budget request of 
$101.9 million, $50 million is for the Folsom Dam (CA), which has been 
identified as the Bureau's highest safety priority. Dam safety 
modifications, within the limits of enacted funding and latest 
information on risk, are planned to begin in 2010 for Glendo Dam (WY) 
and AR Bowman Dam (OR).
                       policy and administration
    The $61.2 million request in fiscal year 2010 funds the 
development, evaluation, and implementation of Reclamation-wide policy, 
rules, and regulations, including actions under the Government 
Performance and Results Act. These funds are also used for management 
and performance functions that are not chargeable to specific projects 
and required for ongoing Commissioner's activities.
                central valley project restoration fund
    This fund was established by the Central Valley Project Improvement 
Act, title XXXIV of Public Law 102-575, October 30, 1992. The request 
of $35.4 million is expected to be offset by discretionary receipts 
totaling $35.1 million, which is the maximum amount that can be 
collected from project beneficiaries under provisions of section 
3407(d) of the act. The discretionary receipts are adjusted on an 
annual basis to maintain payments totaling $30.0 million (October 1992 
price levels) on a 3-year rolling average basis.
    The CVPRF request is a net of $35.4 million. This excludes a 
redirection of an estimated $5.6 million collected from the Central 
Valley Project Friant Division water users to the new San Joaquin River 
Restoration Fund beginning in fiscal year 2010 as authorized in Public 
Law 111-11, Omnibus Public Land Management Act of 2009. Previously, 
these funds went into the CVPRF as outlined in the Reclamation Projects 
Authorization and Adjustments Act of 1992, title XXXIV of Public Law 
102-575, section 3406(c)(1). Under the Settlement Act, approximately 
$15.9 million per year of payments from the Central Valley Project, 
Friant Division water users are deposited in the Fund and available 
without further appropriations to implement the provisions of the 
settlement. These funds will be used for habitat restoration, 
improvement and acquisition, and other fish and wildlife restoration 
activities in the Central Valley Project area of California.
                   san joaquin river restoration fund
    As referenced above, funding in fiscal year 2010 will be used to 
continue planning, engineering, environmental compliance, fisheries 
management, water operations, and public involvement activities related 
to the Restoration and Water Management goals in the Settlement. No 
funds are requested beyond the $15.9 million that is available in 
mandatory spending.
             california bay-delta restoration fund (calfed)
    Title I of Public Law 108-361, titled the Calfed Bay-Delta 
Authorization Act, was signed by the President on October 25, 2004. The 
act authorized $389 million in Federal appropriations over the period 
of fiscal year 2005 through fiscal year 2010. For fiscal year 2010, 
$31.0 million is requested to enable Reclamation to advance its 
commitments under the CALFED Record of Decision to resolve water 
resource conflicts in the CALFED solution area. Funds will be used for 
water storage studies, the conveyance program, water recycling and 
conservation, the science program, water quality assurance 
investigations, ecosystem restoration projects and oversight functions 
to ensure program balance and integration.
                  fiscal year 2010 planned activities
    Reclamation's fiscal year 2010 priority goals are directly related 
to fulfilling contractual requests to deliver water and power. These 
include addressing a range of other water supply needs in the West, 
playing a significant role in restoring and protecting freshwater 
ecosystems consistent with applicable State and Federal law, and 
enhancing management of our water infrastructure while mitigating for 
any harmful environmental effects. Reclamation will deliver roughly 28 
million acre-feet of water to meet contractual obligations while 
addressing other resource needs (for example, fish and wildlife 
habitat, environmental enhancement, recreation, and Native American 
trust responsibilities).
    Reclamation will maintain dams and associated facilities in good 
condition to ensure the reliable delivery of water. Reclamation will 
maintain a forced outage average of 2.20 that is lower than the 
industry average for similar units to ensure reliable delivery of 
power. Reclamation will reduce salinity by setting a goal of preventing 
an additional 12,700 tons of salt from entering the water ways.
    Moreover, the fiscal year 2010 budget request demonstrates 
Reclamation's commitment in meeting the water and power needs of the 
West in a fiscally responsible manner. This budget continues 
Reclamation's emphasis on managing those valuable public resources. 
Reclamation is committed to working with its customers, States, tribes, 
and other stakeholders to find ways to balance and provide for the mix 
of water resource needs in 2010 and beyond.
    In addition, Reclamation, with funds from the American Recovery and 
Reinvestment Act of 2009, will undertake a variety of projects to meet 
future water supply needs, improve infrastructure reliability and 
safety, and restore ecosystems.
                               conclusion
    Mr. Chairman, please allow me to express my sincere appreciation 
for the continued support that this subcommittee has provided 
Reclamation. This completes my statement. I would be happy to answer 
any questions that you may have at this time.

                             BUDGET PROCESS

    Senator Dorgan. Commissioner Connor, thank you very much.
    Mr. Salt, let me ask you why it took 5 weeks from the time 
that the President's budget was released to us getting details 
of that budget? What was going on in the background there?
    Mr. Salt. Sir, both the Recovery Act and the budget being 
so close together, there were a number of efforts by the 
administration to look at the policies that had existed, try 
and come up with a review of those policies, apply them in some 
appropriate way, first in the bill and then, based upon those 
sets of decisions, then to go and make the appropriate 
adjustments in the budget.
    I think as we were doing all of that some of the projects 
changed, some of the numbers changed. As we then went to adjust 
our documentation, it took us certainly longer than we had 
hoped, and I apologize for the delay.
    Senator Dorgan. I'm trying to understand on both the 
economic recovery plan and also this budget what role OMB 
played in the delays, because it seems to me that we have had 
very little time to review what you have submitted in detail. 
We've been put in that position twice in the last 4 years.
    You know, there are lots of questions about how we can get 
information about the metrics that you used to evaluate what 
funding you recommend. I said at the start, the President has 
recommended a lot of earmark funding here. It was true with the 
previous president. Presidents recommend their earmark funding. 
How are those earmarks decided upon? Who makes the judgments 
about here are the things we're going to earmark in our request 
to the Congress?
    Mr. Salt. Sir, as you pointed out in your opening comment, 
it is the President's budget. So obviously at some level the 
President is the one who submits the budget. I am here on his 
behalf presenting this budget. So I take full responsibility 
for the budget that is in front of you.
    I would say as a new person learning how this works, we 
receive broad guidance from OMB. We then apply that guidance as 
we assemble our budget. As I said in my testimony, our focus is 
on trying to ensure that we are recommending the highest 
priority projects. We are given a budget envelope that we fit 
within and it's trying then to recommend the highest priority 
projects.
    Senator Dorgan. Let me tell you why I'm asking the 
question. My sense is you have some sort of evaluation down 
there using certain metrics and models by which you decide 
here's what we'd like to fund. Then I assume it goes, as it has 
in the previous administration, down to the Office of 
Management and Budget and they say, well, here's our 
priorities, and they send it back to you. My understanding is 
these things bounce back and forth. I'm trying to understand 
how it works.
    But let me ask you a couple of specific questions. For 
example, the contract for the Ozark-Jeta Taylor Powerplant is 
not funded for completion in this budget. It's a project that 
you have had in your budget in prior years. I don't understand, 
for example, why you wouldn't fund this to completion or if 
you've changed your mind about the project.
    Mr. Salt. As part of the criteria, we used benefit to cost 
ratio. The sequence of priorities basically was that dam safety 
projects were put at the top of the list, high priority 
projects justified by their economic benefits were arrayed in 
order of their benefit to cost ratio, and in this case the 
Ozark-Jeta Project fell below the other priority projects that 
we had recommended.
    Senator Dorgan. Again, I don't have any particular 
attachment to this project. It just seems to me like if it fit 
some sort of criteria last year saying, it's a project we're 
building, we're going to keep funding it, and now you say, 
except this year we've decided that we don't want to keep 
funding it. I don't understand what the metrics are by which 
one makes that decision. We probably need to know more about 
that.

                       ENVIRONMENTAL RESTORATION

    A question about the Everglades funding, as I calculate 
what you're doing, the Everglades request is $214 million. 
We've spent I think about $1.3 billion on various components of 
Everglades restoration. I'm supportive of restoration projects 
in the Everglades, but the $214 million, that's in addition to 
the $123 million that was in the omnibus, and more than $100 
million you've proposed in the Recovery Act. So that's about 
$440 million in just a matter of months, intended to be 
utilized no later than September 30, 2010.
    I question whether that is going to be able to be done. In 
addition, the Everglades takes about 13 percent of the Corps 
construction budget, and then the next highest funded project 
is the Herbert Hoover Dike, also in Florida, which takes up 
about 8 percent of the construction funds. That means more than 
one-fifth of all the construction money for the Corps is going 
into these two Florida projects.
    I'm not talking about the merits of the projects, but I am 
saying that there are projects I assume in New York and 
California and Missouri and Utah and elsewhere that would 
probably say, how is it that one-fifth of the funding is going 
to be destined in Corps construction to the State of Florida?
    Mr. Salt. Sir, you've raised up a number of important 
issues. As you know, the Everglades restoration is largely 
funded on a 50-50 basis. Much of the work we're talking about 
here are projects that we've been working on for a long time. I 
think the Corps and our partners have been criticized for the 
lack of achieving any actual restoration benefits. So the 
administration is aware of those criticisms and is trying to 
move out with projects that would allow for actual on-the-
ground restoration.
    The recently authorized--the recent WRDA authorized a 
number of projects and what you're seeing in this budget is the 
startup of construction for these recently authorized projects 
that would allow for the progress that people are expecting.
    Senator Dorgan. And those are new starts?
    Mr. Salt. Sir, they are receiving construction funding for 
those elements for the first time, yes, sir.
    Senator Dorgan. General Van Antwerp, you've stated that 11 
percent of the total budget, fiscal year 2010 budget, is for 
environmental restoration. How much of the construction budget 
is set aside for environmental restoration?
    General Van Antwerp. I'm not certain of that figure. I'm 
going to have to get back with you on that number, of the 
actual construction projects. We don't have it broken down like 
that.
    Senator Dorgan. Would you break that down for us, please?
    General Van Antwerp. Yes, sir.
    Senator Dorgan. I have a question of the Bureau, but I want 
to commend the Corps and just say we've been through some 
significant flood fights this year. When you go into a flood 
fight you want the Corps on your side, and the men and women of 
the Corps who came to community after community to be engaged 
in those fights, we should not let the moment pass without 
saying thank you to the Corps and to the organization that 
helps make this happen.
    General Van Antwerp. Thank you, Senator.

                           PROJECT EVALUATION

    Senator Dorgan. In the Bureau of Reclamation, there are a 
number of projects in the fiscal year 2009 Energy and Water Act 
that were not included in the fiscal year 2010 budget request. 
Again, kind of what I asked the Corps: What's the reason for 
that? Have you changed your mind about projects that you 
previously thought worthy and now perhaps think are less 
worthy?
    Mr. Connor. Mr. Chairman, I think that what we're doing 
there is operating within the parameters of the overall budget 
number that we were given. We look at the budget and we 
allocate a set of priorities maintaining the existing 
infrastructure. Then we look at dam safety and security. Then 
we look at ongoing construction activities. Then finally we 
have to deal with our ESA compliance items.
    I recognize that within that ongoing construction activity 
we do have actions that have been undertaken with write-in 
funding on a lot of these rural water projects. But when we 
look at the kind of requirements with respect to maintaining 
that infrastructure, the safety and compliance activities so 
that we can keep delivering water, then we're left with a 
certain amount of money within that budget allocation that 
we're provided. That's where we have to make some tough 
choices.
    Senator Dorgan. So that's where your advice to the 
committee about how you made those choices would be helpful, 
that you force-rank them. I use the term ``earmark.'' You 
earmark your funding choices and force-rank them. We're 
wondering because of that ranking, are some of the things that 
you have previously funded now judged to be less worthy?
    So we'll submit a list of questions to you, but it would be 
helpful to us if you would submit at least a judgment about 
those that you have previously funded and are not now funding, 
to say, in addition to being short of money, we felt this 
ranked below the following, when it did not perhaps the year 
before or the year before that it did rank below another 
project.
    We're just trying to understand what you're doing and what 
your assessment is of the various projects related one to 
another.
    I have taken more than my share of time. I'm going to be 
submitting a list of questions to the Corps and the Bureau. We 
appreciate your being here.
    I'll call on the ranking member, Senator Bennett.
    Senator Bennett. I'll yield.
    Senator Dorgan. Then Senator Bond.
    Senator Bennett. Senator Tester and I were up with the 
Secretary. So you go ahead.
    Senator Dorgan. Senator Bond.

                STATEMENT OF SENATOR CHRISTOPHER S. BOND

    Senator Bond. Sorry I missed that fun.
    General, you mentioned the tremendous O&M costs for our 
operating locks, locks some 80 years old that were built for 50 
years. Many of us believe that they should be replaced and 
expanded for tremendous economic, energy, and environmental 
benefits. But of course, OMB does not agree.
    The chairman rightly pointed out, and he put his finger on 
the problem with earmarks by the administration. My experience 
in the few years I've been here is that the ultimate decisions 
on administration earmarks are made somewhere in the bowels of 
OMB by people we don't know, we don't see or even hear from 
directly, and our constituents can't communicate with.
    When one of us in Congress changes one of these priorities, 
we stand up for the specific item. We appropriately take 
responsibility and answer questions about them. I am one who 
believes that that is a very fair and not sufficiently 
exercised priority.

                             MISSOURI RIVER

    So going to one of the earmarks, the Corps is currently 
responsible under the Clean Water Act to ensure navigable 
waters, such as the Missouri River, are not polluted. A side 
note: I came from EPW, which is looking for a vast expansion in 
the Corps's responsibility that will require a huge number of 
people to regulate every puddle and pond that is not now 
navigable.
    But the administration budget includes $70 million for the 
Missouri River Fish and Wildlife Recovery Project. This is the 
construction of side channels and shallow water habitats across 
farm land adjacent to the Missouri River, for restoration 
activities, primarily for the habitat of the pallid sturgeon. 
Some are already constructed.
    Now, here's the problem. According to the Corps's 
estimates, construction of these projects will result in 
dumping 540 million tons of farm land soil directly into the 
Missouri River. Thus these projects will contribute more than 
350,000 tons of phosphorus to the Missouri River. These 
projects alone will supply 10 times what the EPA Task Force on 
Hypoxia determined to be the annual load of phosphorus of the 
entire Missouri River Basin.
    Scientists believe that phosphorus is a major contributing 
factor in hypoxia in the gulf. In Missouri, the Clean Water 
Commission has vigorously opposed this effort. Missouri 
citizens and farmers have implemented a $41 million soil and 
water conservation tax upon themselves, and Missouri farmers 
pay an additional $27 million of their money to cost-share to 
keep this soil out of the river because of their concern of 
negative environmental impacts.
    Given that the estimated cleanup cost to remove the 
phosphorus that the Corps is planning to put in the Missouri 
River in Missouri cleaning up the shallow water habitat 
projects will be $18 billion, how wise is dumping that soil in 
the Missouri River?
    General Van Antwerp. You have a lot of great facts, Senator 
Bond. I think as we do our section 108 study of the Missouri, 
we need to look further into those issues that you just raised 
right there. As far as the wisdom of that, I've got to really 
dig into the contents of that study. I understand what you're 
saying.
    Senator Bond. I'd like to be able to have a discussion with 
the genius who made that decision. If somebody believes that 
that is still a wise decision, it would be very nice, Mr. 
Chairman, if we could chat with that individual here in a 
hearing.
    These side channel projects are supposed to develop a 
habitat for the pallid sturgeon. I'd like to know how the 
projects were evaluated and justified. Do we know that we're 
getting the best value of our $70 million? I know the U.S. 
Geological Survey has done additional tests on the pallid 
sturgeon and believes there may be some other, more fruitful 
ways of encouraging the reproduction of pallid sturgeon. We 
are, through a Conservation Commission, engaging in a 
significant breeding program for pallid sturgeon so our 
favorite little fish will remain there.
    I would like to know what you have found out about the best 
way to stimulate the sex life of the pallid sturgeon. That 
would be helpful.

                         FLOOD RELIEF AUTHORITY

    Finally, we're very much concerned that a recent 
announcement by the administration to get FEMA out of the 
ability to help fight floods, remove debris, de-water, and 
assist in emergency efforts. There are many small communities 
in my State and I imagine in all States where our communities 
could be left high and dry or, worse, low and wet in the 
darkest hour.
    Does the Corps have any authorization to step forward in 
the gap left by FEMA's failure to deal with these natural 
disasters?
    General Van Antwerp. We do--we have a number of our own 
authorities under Public Law 84-99, which allows us to come in 
and flood fight and do coastal emergencies and those kinds of 
things separate from the FEMA. When we work for FEMA, we work 
under Emergency Support Function 3, which is for debris removal 
and ice and water and the blue roofs. So those issues are under 
FEMA when we respond to a disaster.
    Senator Bond. But you can handle--not just coastal, but you 
can handle the inland disasters that might strike the Dakotas, 
Utah, and Montana?
    General Van Antwerp. Right, much like the Midwest floods or 
even the ice storms of Kentucky this year. We're able to 
respond if it is a levee that's affected, we can come in under 
our own authority.
    Senator Bond. What tests if it's not a levee? What kind of 
damage do you have to have for you to move in?
    General Van Antwerp. If it's not a flood or a levee 
situation----
    Senator Bond. If it's a flood, you can take it?
    General Van Antwerp. If it's a flood, we're allowed to 
flood fight that with the local community. If a levee is judged 
that it is entitled to 84-99 funds, we can come in and build 
HESCO barriers, help increase the height of that levee, et 
cetera.
    Senator Bond. Thank you very much, General. We appreciate 
the good work you do. You're a vitally important partner and 
we're grateful for it. We just have some serious concerns about 
some of the things you've been directed to do.
    Thank you, sir.
    Senator Dorgan. Senator Bond, thank you.
    I should point out that if those in the audience observe a 
different look here on the dais, it's Seersucker Thursday. Some 
of us can only afford one suit, but our colleagues look pretty 
spiffy today and we're glad to see them here.
    Senator Bennett.
    Senator Bennett. Once I bought it for the first Seersucker 
Thursday, I was determined I was going to keep wearing it year 
after year because I'm not going to pay $150 for a suit and 
only wear it once. So that's where we are.
    Thank you, Mr. Chairman.

                    OBJECTIVE PERFORMANCE GUIDELINES

    Mr. Salt, your testimony says that the Corps is applying 
objective performance guidelines to the competing projects. Can 
you explain what the specific guidelines are?
    Mr. Salt. Sir, there are different guidelines depending on 
the business line that we're talking about. Our highest 
priority is dam safety. The Corps does a risk analysis, taking 
into consideration the condition of the dam and the probability 
that there would be a serious risk to public safety, and based 
on that criteria those projects that are deemed a serious risk 
are moved to the top of our list.
    For projects that are justified by the economic benefits, 
it's the benefit to cost ratio that is used. So we take the 
project portfolio that we have and we apply our benefit to cost 
ratio criteria.
    For our navigation projects, it's a combination of the 
state of the navigation channel, the degree to which it's 
silted in and the additional work, dredging or other repairs, 
which need to be done. The Chief of Engineers, General Van 
Antwerp, mentioned the navigation locks and the need to pay 
attention to the important maintenance of our navigation locks. 
That analysis is done based on a combination of the condition 
of the particular project and the impact of not doing the 
maintenance in that year. Again, a similar risk-based analysis 
is used for those projects.
    Senator Bennett. Do you apply those same standards to 
environmental infrastructure projects, the risk, economics, and 
navigation?
    Mr. Salt. Sir, for the environmental restoration, those 
efforts are prioritized basically by the administration as our 
highest priority environmental restoration efforts, and there 
are a number of large environmental restoration efforts. In 
2007, Congress directed the Corps to review its principles and 
guidelines, which really doesn't give the administration's 
national policy for evaluating projects. It doesn't really give 
any guidance as to how to deal with the environmental issue 
that you're talking about.
    We expect within a few months to have the draft proposed--a 
revised draft of the principles and guidelines that we're 
required to give to the National Academy of Sciences. It's in 
that document that we're looking at how to quantify non-
monetary benefits in a way that would allow for a more 
objective set of criteria for dealing with environmental 
restoration projects.
    Senator Bennett. Do you ever have a conflict where you say 
if we do this environmental infrastructure it's in fact going 
to increase the risk?
    Mr. Salt. I'm not aware of any--when I talk about the 
environmental, I'm talking about the environmental restoration 
projects. The environmental infrastructure is basically the 
sewage treatment and those sorts of projects, and I would say 
those are not supported by the administration.
    But for the environmental restoration projects, I'm not 
aware of any--those that I'm aware of in Florida--I've been 
working in Florida--we maintained existing authorizations and 
in fact the projects were formulated so that there was no harm 
done to flood or water supply interests. So I would say as a 
matter of policy that would be my expectation as it relates to 
environmental restoration projects.
    Senator Bennett. Okay.

                           DROUGHT ASSISTANCE

    Ms. Archuleta, the Bureau has budgeted $500,000 for drought 
assistance in fiscal 2010. Do you think that's sufficient?
    Ms. Archuleta. Well, Senator, certainly it's difficult to 
know what our drought conditions are going to be. We work 
collaboratively with NOAA. It's tough for us to predict what 
the weather conditions are going to look like in the coming 
year. We're hopeful and certainly we'll work as closely with 
that budget as we can.
    Senator Bennett. The Central Utah Project. I'm sure it 
comes as no surprise that I have an interest in that. The 
budget is flat compared to fiscal 2009. Obviously you think 
that's sufficient to meet the progress. But what is your 
funding, total funding capability for CUPCA in 2010?
    Ms. Archuleta. Well, actually, if I may, I'd like to turn 
it over to Mr. Murray, who's here, who knows the project, as 
you know, very well.
    Senator Bennett. Okay, good.
    Mr. Murray. Mr. Chairman, Senator Bennett----
    Senator Bennett. Would you identify yourself?
    Mr. Murray. Yes, Reed Murray. I'm the Program Director of 
the Central Utah Project.
    First of all, I'd like to thank the subcommittee for your 
support over the years of the Central Utah Project. As you 
know, it's the largest water project ever undertaken by the 
State. We do appreciate your support.
    Your question was the capability of the project.
    Senator Bennett. Right.
    Mr. Murray. Well, first of all, we do support the 
President's budget. As you mentioned, there is no increase over 
the 2009 appropriation. However, the boost in appropriations 
that we received through your support with the Recovery Act has 
helped us and given a significant increase to our program and 
allowed us to keep on schedule. So as far as our capability, we 
feel that the budget is the capability that we can maintain in 
2010, given that and the Recovery Act funds that we have.
    Senator Bennett. Good. Thank you.

                          TERMINATING PROJECTS

    I'm concerned about failure to complete existing projects. 
I think the chairman visited this issue as well. As I see it, 
this budget cancels 100 ongoing construction projects funded in 
fiscal 2009, not addressed in 2010. Terminating ongoing 
projects obviously long-term creates an enormous cost for the 
taxpayer.
    So Mr. Salt, can you quantify what you expect the Corps to 
be able to pay in contract termination fees if we adopt this 
request? Or will they simply be delayed and resumed at a 
certain point hereafter, which could potentially be 
significantly more expensive as construction costs go up?
    Mr. Salt. Sir, I don't know the number of projects that we 
have stopped. There's one project that, the Ozark Jeta Project 
I believe the chairman mentioned earlier, is a----
    Senator Bennett. I've noted that as well.
    Mr. Salt [continuing]. Has a continuing contract. The 
estimated termination costs if we're required to terminate are 
estimated at $12 million. That project--at the time we put the 
stimulus list together, our assumption was that that project 
would be in the budget. So it wasn't included in our list. It 
would have----

                         ECONOMIC RECOVERY ACT

    Senator Bennett. So you're saying it was not included in 
the Recovery----
    Mr. Salt. It was not in our initial stimulus list. When the 
final guidance--when we finally determined what was our 
criteria, on the benefit to cost----
    Senator Bennett. Right.
    Mr. Salt [continuing]. The benefit to cost ratio from that 
project fell under the--we were not able to get to it with the 
available funds that we had. Because it has a higher benefit to 
cost ratio than other projects that we included on our stimulus 
list, we are now looking at the possibility, if funds are 
available based on our execution of the Recovery Act funds, 
this would be a priority for us to include under Recovery Act 
funding, and that's something we will seriously look at.
    Senator Dorgan. Mr. Secretary, that gets to the point I was 
trying to ask you about earlier. I believe you were working on 
the fiscal year 2010 request at the same time that we provided 
funding for the Economic Recovery Act for you. As I said, there 
was zero money requested, inexplicably, for water projects in 
the economic recovery package.
    We provided money, then you began working on how that money 
would be spent, and that was concurrent with your work on the 
fiscal year 2010 budget request. So when you say that you 
expected it to be in the budget request, so you didn't put it 
in the economic recovery package, you were doing both of them. 
That's what I was trying to get at. Or did that list go 
somewhere else for somebody else to make decisions? And if so, 
whom?
    Senator Bennett. I'm assuming from your question and the 
chairman's explanation, from your answer to me and the 
chairman's probing, I'm assuming that we can expect some 
reprogramming requests from you to try to put some of this back 
in.
    Mr. Salt. Sir, that decision has been made. It is a 
priority, and I think as we move forward--I guess, Mr. 
Chairman, your comment gets to what I was trying to answer when 
I apologized for the delay. I think there were two areas where 
this came up. One was on the beach projects, where we were 
trying as a matter of policy to decide whether to fund some of 
them in the Recovery Act or not. We ended up doing not only 
initial nourishment, but also re-nourishment, and doing that as 
part of the budget, and not to include funding for those in the 
stimulus.
    Similarly, we were putting the stimulus together, we did 
make what turned out to be a wrong assumption that we would 
proceed with the continuing contracts in the budget. It turned 
out that the performance-based guidance we received was that we 
would fund down to a benefit to cost ratio for which the Ozark 
Jeta Project didn't compete on a benefit to cost basis, and it 
was not included in the President's budget.
    So it was our decision. Basically, we said here is the 
broad guidance we were given. As we applied that broad 
guidance, the Ozark Jeta Project fell below the threshold.
    Senator Bennett. You do incur an obligation to repay people 
who have been involved. Do you have plans to reimburse the 
Southwest Power Authority or their ratepayers for the $20 
million that they've contributed?
    Mr. Salt. Sir, that's why it's a priority that we consider 
it for the available funds in the Recovery Act.
    Senator Bennett. So it would be cheaper, wouldn't it, 
rather than reimburse that $20 million, to simply go ahead and 
finish it?
    Mr. Salt. Yes, sir, I think it would.
    Senator Bennett. Okay, then let's go ahead and finish it.
    I understand, having experience with OMB that OMB sometimes 
has a different view of life than agencies, and I won't press 
you any further on that. But I do feel that failing to complete 
existing projects ultimately ends up as a waste of taxpayers' 
money.
    Thank you, Mr. Chairman.
    Senator Dorgan. I think that there can be cases where an 
existing project at some point becomes a project that someone 
says, well, we'll reevaluate; it sounded good when we started 
it, but this is no longer a project that makes much sense.
    But the Senator from Utah makes an important point. If this 
project should be continued--I'd much sooner appropriate 
funding to finish a project that is worthy rather than pay 
penalties to end the project. I mean, $12 million or $20 
million is a lot of money.
    Did anyone raise this during the deliberations of the 
budget and the Recovery Act, or was it just not raised?
    Mr. Salt. Sir, we raised it and my counterparts in OMB even 
said I could blame them if I wanted. But I don't----
    Senator Dorgan. Maybe you just did.
    Mr. Salt. No, sir. No, sir. What I'm trying to say is I'm 
here and I take ownership of this budget. I'm trying to explain 
the rationale for it.

                           BUDGET PRIORITIES

    Senator Dorgan. I understand the difficulty. We're not 
trying to ruin your breakfast here. As I said at the start, you 
come representing a budget. You're required to pay fealty to 
that budget. I understand that. And we're just trying to 
understand what the criteria is by which decisions are made and 
who makes them.
    It was very frustrating for us as we watched particularly 
the economic recovery funds and the list, because you didn't 
have a list. You didn't ask for any funding. We provided 
funding. And then there was a list. I had to call the head of 
OMB and I called the White House to find out when would 
somebody start making decisions about funding some of these 
projects, because the purpose of them was to start some sort of 
economic recovery. It took some while to get something off 
center to get it moving.
    So again, I don't--I understand the point you're making, 
Mr. Salt. Yes?
    Mr. Salt. Sir, could I make one comment, that as a new 
person I too am sharing some of your frustration as to how 
we're doing this. We have talked to OMB. We have talked to 
folks that as part of our fiscal year 2011 budget to try and 
work with the Congress to come up with a better way.
    The big issues are what you alluded to, sir, how do you 
ensure that we're funding the highest priority needs, because 
we have a backlog that we can't get to of very high priority 
projects because we're funding the portfolio that we have. So 
we're very interested in trying to come up with a better way of 
working through this in a way that's more mutually 
satisfactory.
    Senator Dorgan. And we want to work with you. We want you 
to succeed. We want the best decisions possible to come out of 
all of this. This is not a subcommittee where there are 
political battles going on. We're all very interested in water 
and energy issues and we want the best decisions to be made. We 
want to work with you, and we appreciate your being here.
    A new member of this subcommittee, and we're pleased to 
have him, Senator Tester.
    Senator Tester. Thank you, Mr. Chairman.

                      MISSOURI RIVER RECOVERY PLAN

    We'll start with the General. But, Mr. Salt, if you want to 
throw in on this one you can. The Army Corps requested $70 
million for the Missouri River recovery plan. Senator Bond 
spoke of it a bit ago. Part of this money is to be used for 
completing an environmental analysis and engineering on an 
intake dam near Glendive, Montana. The replacement of that dam 
will open up about 240 miles to pallid sturgeon on the 
Yellowstone River.
    I guess the question is, does the $70 million request for 
that line item allow for the intake dam project to proceed in a 
timely manner?
    Mr. Salt. Senator, it does allow for it to proceed in a 
timely manner. There were also funds in the Recovery Act for 
that, so the combination of these allows us to proceed in a 
timely manner.
    Senator Tester. Thank you. What's the timeframe on that, on 
the removal and replacement of that dam?
    Mr. Salt. That I'm going to have to get the detailed 
schedule. I don't have it with me right now.
    Senator Tester. If you could do that and get it back to my 
office, I would certainly appreciate that. Thank you very much.

                          FORT PECK RESERVOIR

    Talk a little bit about--we'll talk a little bit about 
some--and this is also for you, General--about some lots on 
Fort Peck Reservoir. The WRD Act of 2000 authorized conveyance 
of about 400 cabin sites in four areas around Fort Peck to 
current leaseholders. I guess the question is that in the last 
2 years the Corps has received about $1.8 million to complete 
the surveys and environmental work to complete the sale. The 
authorization expires next year. Does the Corps have adequate 
resources to complete the lot sales before the authorization 
expires?
    General Van Antwerp. In this case we don't have the entire 
funds to complete this. There is an additional amount of funds 
that is needed to finish this project.
    Senator Tester. Okay. So the Omaha District reported to our 
office that about $1.9 million could be used in fiscal year 
2010 to complete the sales. I'm confused why they told my 
office that, but yet did not put in a request to that effect.
    General Van Antwerp. At this point I need to read about 
capability and what the district did was give you the 
capability. That of course is the amount of funding that could 
be used above the amount requested. In this case, there's no 
money requested in the President's budget for this project.
    Also, I have to remind that we would utilize additional 
funds on projects or studies, but there would have to be 
offsets. So it's all part of, as the budget was assembled this 
project didn't get the funds, but there is a capability to do 
work on this project if funds were appropriated.
    Senator Tester. Okay. The authorization expires next year. 
It's been going on since 2000, a 10-year project. I think that 
there is a will on both sides to do this. What I heard you just 
say is that you weren't going to do it because you didn't have 
capability of doing it?
    General Van Antwerp. No, we have capability of doing the 
work. As we looked at the budget in its entirety and it was put 
together, there weren't sufficient funds to allocate money 
toward this project.
    Senator Tester. Okay, so it didn't come up high enough on 
the priority list to ask for money for this project, is what 
you're saying?
    General Van Antwerp. That's correct.
    Senator Tester. Okay. So are you going to ask for an 
extension of that authorization? Are you just going to let it 
run out?
    You can get back to me on that, if you would. It would be 
good to get it done. Let's just put it that way.

            MISSOURI RIVER RECOVERY IMPLEMENTATION COMMITTEE

    I hate to pick on you, General. I've got another one. The 
Missouri River Recovery Implementation Committee was created as 
an all-inclusive--well, an inclusive; shouldn't say ``all''--
planning body for the stakeholders throughout the basin of the 
Missouri River. The legislation creating this project, the 
MRRIC Project, prohibited the stakeholders from getting help 
for traveling to these meetings. I've got a couple questions.
    How is stakeholder involvement? If you can't address it, 
you can get back to me on that, too. But how is stakeholder 
involvement as far as this subcommittee goes? That would be the 
first question.
    General Van Antwerp. First of all, it's crucial that we 
have stakeholder involvement.
    Senator Tester. Are they involved?
    General Van Antwerp. They are involved. That's absolutely 
crucial and it is part of the process. As we do all the 
activities--this is in kind of the preplanning stage, which is 
really when those stakeholders need to be involved.
    Senator Tester. I agree with you that it is absolutely 
critical that you get broad-based participation in the 
subcommittee. I can tell you the stakeholder travel is not 
permitted under the project and I have got--I have received a 
fair number of calls saying, particularly from Native American 
tribes who are part of that basin, saying that it's really not 
inhibiting their--its inhibiting their ability to come.
    I just want to get your thoughts on that. I mean, if we're 
getting broad-based attendance now, that truly is broad-based, 
that's a good thing. Going into the future, if it starts to cut 
back I think it would be great to know about that, so we can 
address it.
    General Van Antwerp. I think your concerns, Senator, are 
good. What we try and do in this case--we do not pay those 
funds for them to travel to be part of that stakeholder group. 
But we do try and locate our meetings where----
    Senator Tester. Centralized.
    General Van Antwerp [continuing]. They don't have to 
travel. So we will take--I'll take a close look at this and 
make sure we're not disadvantaging or not getting their input 
because we're not in their location.
    Senator Tester. I appreciate that.

                       SAINT MARY'S CANAL PROJECT

    Mike Connor, it's good to see you, good to see you on that 
side of the table, hope the position's working out well. I 
think you're doing good work.
    The President's budget included funding to conduct NEPA on 
the diversion dam at Saint Mary's Canal. We appreciate the 
recognition from the administration more than you will know 
that this facility is in bad need of repair--a critical first 
step.
    However, while replacing the diversion dam is needed, 
especially as it applies to endangered species protection, it 
does not address the risk of catastrophic failure of the 
overall parts of the system, which are--not if, but when 
they're going to fail. We cannot fix it, the project, as you 
probably know, Mike, until the alternatives are completed 
around it.
    Does the administration support NEPA on the entirety of the 
Saint Mary's Canal Project, and if they haven't been--if you 
don't know that question, I guess my question is would you 
advocate for that?
    Mr. Connor. Well, thank you for your welcome, Senator 
Tester.
    I don't know the complete answer to your question, but I do 
know we do have in the fiscal year 2010 budget a request to 
initiate the NEPA and the ESA consultation that we do need to 
complete.
    Senator Tester. And we thank you for that.
    Mr. Connor. So we will move forward very quickly in that 
manner. We are also having ongoing discussions with the Corps 
and our regional folks and a very good dialogue going right 
now, given the authority that the Corps also has, as to how to 
best move forward and maybe we can do it in a cooperative 
effort in doing our analysis and trying to develop a game plan 
under which we can maybe segment or look at different ways to 
get into the rehabilitation as we move forward with the NEPA 
and the ESA process.
    Senator Tester. Commissioner, the door is always open. We 
would love to be a part of those conversations. This is a 
critically important project for the northern tier of Montana, 
not only towns, but irrigators, and it's one of those things 
that should have been replaced 30, 40 years ago. But we are 
where we are.

                       RURAL WATER INFRASTRUCTURE

    Another question that deals with the rural water projects 
that received a good sum of money for the recovery package, and 
we appreciate your work there, too. Projects in my neck of the 
woods, Montana, North Dakota, South Dakota, these are long-term 
commitment projects, as you well know. Should we interpret the 
support in the Recovery Act as a renewed commitment from this 
administration to support rural water infrastructure? Is it 
high on their list?
    Mr. Connor. Well, the funding provided for those two rural 
water projects in Montana, I think represents the fact that 
there's a recognition of the need that exists there, and 
certainly trying to implement the Recovery Act in a way that 
met the goals of job creation and meeting other priorities as 
set forth in the legislation. So those two projects did receive 
substantial money.
    There is also a request, I think even maybe for the first 
time, on a couple of those projects for the fiscal year 2010 
budget. Recognizing that those requests are significantly lower 
than the funding provided by Congress, I think it's a 
recognition that we do want to continue toward moving forward 
with progress. Particularly in Fort Peck, I think we're getting 
substantially down the way to completion of the project.
    Senator Tester. Yes.
    Mr. Connor. Rocky Boys is still really in its infancy, but 
there is some level of funding in the 2010 budget to keep the 
activity going there.
    Senator Tester. Well, I certainly appreciate it. Just as a 
sidebar comment, from my days in the State legislature, from my 
first day in the State legislature as a matter of fact, these 
projects were on the list and they've more than doubled in the 
last 10 years because of inflation. I appreciate the 
administration's stepping up and putting some significant 
moneys in because it finally gets us ahead of inflation, and I 
think that we've got to get these projects done or literally a 
good portion of eastern Montana will have a hard time 
surviving. Let's just put it that way.
    Anyway, I thank you all for being at the hearing and I 
appreciate your comments.
    Thank you very much.
    Senator Dorgan. Senator Tester, thank you very much.
    Senator Alexander.
    Senator Alexander. Thank you. Thank you, Mr. Chairman.

                            CHICKAMAUGA LOCK

    I have just two. Thanks to each of you for being here. I 
have just two questions, General, and both of them are of you, 
if I may. I'm concerned the Corps is not properly prioritizing 
Chickamauga Lock near Chattanooga as it considers when to 
complete the construction of the new lock. You've done a lot of 
very important work on it and we appreciate that. But usually 
the Corps determines how important it is to repair or rebuild a 
lock based upon the value of the cargo passing through the 
lock. My concern is that in cases like the one we have at 
Chickamauga the Corps of Engineers isn't able to fully measure 
the value of the lock because the lock plays an important 
supporting role to the Oak Ridge National Laboratory and the Y-
12 National Security Complex, and the cargo that goes through 
the lock to the Oak Ridge Laboratory, which is the largest 
energy laboratory in the world, and the Y-12 National Security 
Complex, which has to do with nuclear weapons, is different and 
difficult to--is different in terms of evaluating it.
    Is there some way that you can consider the role 
Chickamauga Lock plays in supporting Oak Ridge and Y-12 as you 
assess the value of the lock and prioritize it with respect to 
your other lock repair and construction projects?
    General Van Antwerp. Senator, you make some great points. 
We'll take that under consideration. Right now the 
prioritization goes if it's life safety, then economic is 
slightly below that, but very, very important. So we need to 
look at these other considerations, and I will go and make sure 
that this is plugged in as we look at the value of these; when 
we rate our locks and dams, basically the dams, we have 
categorized all them as to the risk of danger for life safety 
and other factors.
    Senator Alexander. Nationally----
    Mr. Salt. Senator, could I comment on that, sir?
    Senator Alexander. Yes, of course.
    Mr. Salt. As we talked earlier, the current guidance for 
the Corps, national guidance, called the principles and 
guidelines, directs the Corps to focus on the aspects of a 
project that optimize the economic development, the NED plan.
    Senator Alexander. Right.
    Mr. Salt. The new P and G will attempt to look at other 
non-monetary factors as a way to try and expand the way we look 
at projects to include these other kinds of considerations. As 
I mentioned earlier, we expect to have our new draft of this 
out later this summer. But I would hope that it would give us 
the analytical basis and the national policy basis to try and 
get at the kinds of issues that you're raising.
    Senator Alexander. Well, the National Academy of Sciences 
in its report--well, in a variety of ways, but in its work with 
the Augustine Commission, which we called America Competes, one 
of the most important pieces of legislation we passed in 
Congress, said that America's brain power advantage since World 
War II is the single greatest contributing factor to our high 
standard of living. That's economic development.
    And the Oak Ridge National Laboratory is the single largest 
energy research laboratory in America, perhaps the world. So 
our great laboratories are our principal engines of economic 
development, not just in Tennessee, but in our country. And 
that's been recognized by the National Academies of Science and 
Engineering and Medicine. It's been affirmed by the Congress in 
our America Competes Act, where we prioritized those efforts.
    So national security is of course another part of it, but 
if we're going strictly on economic development--I remember 
when I was Governor of Tennessee I tried many different ways to 
help our State improve our low family incomes. I tried getting 
rid of the usury limit and I tried building highways. I tried 
everything, but it all came back to education. I eventually got 
into funding centers of excellence and master's teachers and 
chairs of teachers and creating distinguished scientist 
programs between the Oak Ridge National Laboratory and the 
University of Tennessee as the single best way to create higher 
family incomes, economic development. In fact, we became the 
State with the fastest growing family incomes in the country.
    So I'd make a strong argument that the Oak Ridge Laboratory 
and similar institutions around the country fit the economic 
development title or even should lead it. Economic development 
today is different than it was 50 years ago, most people who 
work in it understand that better schools, colleges, 
universities, national laboratories are essential to it.
    Anything else on Chickamauga I should know or ask about?
    General Van Antwerp. I will just tell you it's very high on 
our priority and we're watching it closely and having periodic 
reviews of it. It's moving along.
    Senator Alexander. Well, we've talked about it before and 
it has great importance to our entire region in terms of jobs.

                    CENTER HILL AND WOLF CREEK DAMS

    The other question I have has to do with Center Hill and 
Wolf Creek Dams. I greatly appreciate the priority that you've 
placed on those two dams. The President's budget request shows 
support for funding levels that will continue to keep the 
projects on track with minimal disruption to residents. There's 
a safety problem in Kentucky and in Tennessee outside 
Nashville.
    Now, here is my goal and my question. I'd like to get the 
lake levels back up to pre-construction levels as rapidly as we 
possibly can, because while the lake levels are low we're 
having to buy $100 million worth of electricity every year from 
outside sources that would otherwise be produced by 
hydroelectric.
    Now, this administration is placing a very high value on 
carbon-free electricity from renewable energy and the simplest, 
cleanest form of renewable energy is hydroelectric power. So my 
question is, is there a way that you can continue to do your 
work there, finish the work that you're doing about seepage, 
and bring the lake levels back up to their pre-construction 
levels so we can use that carbon-free electricity that we can 
produce?
    General Van Antwerp. Your point is very well made. I assure 
you we're going to bring those lake levels up as soon as we can 
and still have the proper safety measures. So now that we've 
got the grouting walls in Wolf Creek, for example, that allows 
some raising of that elevation. But it may be farther down the 
road before we can get back to pre-construction levels.
    Safety is the primary concern here. But I assure you we're 
trying, and we're reviewing this. What is the next level? We've 
got all of our experts on it to see, now that you have the 
grouting walls done, what does that allow you to do. We'll do 
some raising of it. As we've had inflows in and raised it up, 
we're watching the boils down below the dam that have lessened, 
by the way, because of the grout curtain.
    But we'll get it up there as soon as we can.
    Senator Alexander. I appreciate that and I have no 
complaint to make about anything about your work there. I just 
thought maybe I'd give you some extra ammunition, given the 
administration's focus on carbon-free electricity. This is a 
significant amount in an area--otherwise we use more coal or 
other things.
    Mr. Chairman, those are the only questions I have. I thank 
you for the time.
    Senator Dorgan. Senator Alexander, thank you very much.

                       RED RIVER VALLEY FLOODING

    Two other points, Commissioner Connor and Secretary 
Archuleta, I'm going to send you a note. I would ask that you 
respond if you would about additional information that you may 
be sending to OMB about the record of decision that's awaiting 
us on the Red River Valley Water Project. The previous 
secretary did not issue a record of decision. I understand 
there is discussion between your agency and OMB and my 
expectation is that you'll be sending them additional 
information. If you would give me a report on that, that record 
of decision has been waiting for some while.
    General Van Antwerp, I did not mention the Red River Valley 
flooding situation and the work that we have done. You've been 
in a number of meetings on the Devil's Lake flooding, chronic 
flooding problem. I'll be holding meetings on Saturday morning 
in Valley City, North Dakota, and Jamestown, North Dakota, 
about the James River and the Cheyenne River, both of which had 
very serious flooding this year. So we're working on a lot of 
issues with you in our State.
    I think all of us on this subcommittee find ourselves in 
that position. That's one of the reasons we aspire to be on 
this subcommittee, to address some very significant water 
policy issues.
    So we will continue to have those discussions. I didn't 
mention them earlier, but I wanted to make note for the record, 
just because we have had a lot of discussions recently about 
them, that they remain a significant priority.

                     ADDITIONAL COMMITTEE QUESTIONS

    I want to thank you for appearing. We will be submitting a 
list of questions to you and ask that you respond to them, and 
we appreciate very much your being here today.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]
                Questions Submitted to Terrence C. Salt
             Questions Submitted by Senator Byron L. Dorgan
    Question. Who is the responsible official for approving what goes 
into the Corps' budget?
    Answer. While the Army made recommendations, this is ultimately the 
President's fiscal year 2010 budget.
    Question. Were you also the responsible person that made the 
decisions as to what projects were included in the Recovery Act?
    Answer. Yes, I was ultimately responsible for those decisions. 
Within the Corps headquarters, a senior management group is responsible 
overseeing the American Recovery and Reinvestment Act of 2009 (ARRA) 
activities.
    Question. Could you tell us a little about the decisionmaking 
process that went into the Recovery Act?
    Answer. USACE received $4.6 billion of ARRA funds in 6 different 
appropriation accounts. The projects selected represent a set of 
investments that will contribute to economic development. The Civil 
Works projects will further these Recovery Act stated purposes of 
preserving and creating jobs and promoting recovery as well as to 
invest in transportation, environmental protection and other 
infrastructure that will provide long term economic benefits .
    The Corps followed the Recovery Act's guidance which included 
commencing expenditures and activities as quickly as possible 
consistent with prudent management. The Corps made its allocation of 
Recovery Act construction funds based on the economic and environmental 
return of its ongoing projects. The projects will achieve the purposes 
of the Recovery Act to commence expenditures quickly by investing in 
infrastructure that will provide long term economic and environmental 
benefits to the Nation. Moreover, the projects are fully consistent 
with the President's direction to ensure that Recovery Act funds are 
spent responsibly and transparently.
    The projects also meet the five criteria enumerated in the 
Congressional report accompanying the Recovery Act, namely that the 
projects:
  --Be obligated/executed quickly;
  --Result in immediate employment;
  --Have little schedule risk;
  --Be executed by contract or direct hire of temporary labor; and
  --Complete a project phase, a project, an element, or will provide a 
        useful service that does not require additional funding.
    Question. I find it interesting that beach renourishment projects 
were deemed not eligible for funding in the Recovery Act and yet when 
the budget was released less than 3 weeks later, beach renourishment 
projects were included in your fiscal year 2010 budget. You had to be 
working on both of these at the same time. How is it that this decision 
was made?
    Answer. The administration has reviewed the policy for beach 
nourishment and re-nourishment in the context of Flood and Storm Damage 
Reduction. After reviewing the policy, the decision was made to have 
beach nourishment and re-nourishment projects compete for funding with 
other Corps construction projects. The decision was made to support the 
highest performing beach nourishment and re-nourishment projects and 
the first opportunity to do so was in the fiscal year 2010 budget.
    Question. It took 5 weeks from the time the President's budget was 
released on May 7 for the COE to provide detailed budget 
justifications. You knew in March what your funding allotment was going 
to be. Reclamation on the other hand did not find out their allotment 
until much later, yet managed to get their justifications released with 
the budget. What was the problem?
    Answer. I regret that the materials were not provided in a timely 
manner. We will work diligently to provide budget materials in a timely 
manner in the future.
    Question. Are you aware of any other agency in the executive branch 
that took this long to get their budget justifications submitted?
    Answer. No.
                   ozark-jeta taylor power plant, ar
    Question. I am surprised that the contract for the Ozark-Jeta 
Taylor power plant is not funded for completion in the fiscal year 2010 
budget. This is a project that you have budgeted for in prior years. 
Can you explain why you are not choosing to fund the completion of this 
contract in fiscal year 2010?
    Answer. The Ozark-Jeta Rehabilitation Contract was not funded this 
year because the decision point for allocation of funding to high-value 
projects was made on a performance basis within available resources. 
The Ozark-Jeta Rehabilitation project has a benefit-cost ratio (BCR) of 
1.8, which fell below the 2.5 BCR funding threshold.
    Question. What is the cost to complete this contract?
    Answer. The costs to complete this contract is $33 million.
    Question. What is the cost to terminate this contract?
    Answer. The costs for the termination is estimated to be $20 
million.
    Question. Why couldn't Recovery Act funds have been used to 
complete this project?
    Answer. At the time decisions on Recovery Act project selections 
were made, the Army did not know the full extent of the fiscal year 
2010 budget policies or the impacts on specific projects of such 
decisions. Therefore the Army did not know how Ozark-Jeta would be 
specifically treated in the budget.
    Question. Was the criteria for inclusion in the Recovery Act 
different than the criteria utilized in the fiscal year 2010 budget?
    Answer. Yes, there were many projects funded through the Recovery 
Act that would not be included in the fiscal year 2010 budget.
                                earmarks
    Question. Do you or Ms. Archuleta have any idea how President 
Bush's Executive order on earmarks will be enforced by President Obama?
    Answer. No, I do not.
    Question. For fiscal year 2009, Congress referenced all of the 
Corps and Bureau text and tables into the law. Is this causing you any 
execution issues?
    Answer. No.
    Question. Is this contributing to an increase in carry over from 
one fiscal year to the next?
    Answer. No.
                   norfolk harbor, craney island, va
    Question. I notice that you have recommended funding for the 
Norfolk Harbor, Craney Island project as a new start construction 
project for fiscal year 2010. As authorized in WRDA 2007, this project 
is to be 50/50 cost shared between the Federal Government and the local 
sponsor. However, it is my understanding that the Chief of Engineers 
recommendation for the project was that it be cost shared at 4 percent 
Federal costs and 96 percent non-Federal costs.
    Explain to us how a project that was authorized in violation of 
your own policies was funded as a new start in your budget?
    Answer. The decision on which projects to start is based on their 
benefit-cost ratios. This project has a benefit-cost ration of 3.6 to 1 
and was within the range of high-value projects selected for new 
starts. The project was first authorized in WRDA 98 at the 4/96 Federal 
non-Federal cost sharing based on the Chief's report of 1997. The 
budget is based on the project being executed at that cost sharing, 
rather than at the subsequently revised cost sharing.
    Question. Are you aware of any other time that the administration 
has recommended funding for a project that was not authorized in 
accordance with administration policy?
    Answer. Yes, and in that case also the project was budgeted on the 
basis that it would be executed at cost shared in accordance with 
policy.
    Question. What makes this one special?
    Answer. It is a high performing project with a benefit to cost 
ratio of 3.6.
    Question. You proposed $28.5 million for fiscal year 2010 which is 
clearly less than 4 percent of the total project cost of $750 million. 
Your budget justification indicates that once you fulfill the 4 percent 
Federal share that no more funding will be recommended by the 
administration. Are you not then leaving us with the problem of 
fulfilling the cost share authorized in law?
    Answer. The 4 percent share is based on the allocation of project 
costs as shown in the Chief's report of 1998 and reflective of the 
large local sponsor investments that must be made in land-side 
facilities and lands, easements and rights of way.
                      inland waterways trust fund
    Question. You have again proposed a lockage fee as a replacement 
for the current diesel tax on the Inland Waterways as a way to enhance 
revenues in the Inland Waterway Trust Fund. This fee was roundly 
rejected by industry and Congress last year.
    Do you see a different outcome this year?
    Answer. The Inland Waterways Users Board formed an Inland Marine 
Transportation System (IMTS) Investment Strategy Team, with 
participation by representatives of the inland navigation community and 
Corps of Engineers representatives from around the country, to consider 
long-term investment options and to address the shortfall in the Inland 
Waterways Trust Fund (IWTF). The intent of this effort is to reach a 
consensus approach to address this issue.
    Question. Has the administration worked with the Finance or 
Environment and Public Works Committees in the Senate to determine what 
might be acceptable to enhance these revenues?
    Answer. I am not aware of such discussions.
    Question. This subcommittee will write a bill to conform to the 
revenues as they currently exist in the Trust Fund. No solution to the 
inadequate revenue nor forgiveness of the matching requirements of the 
Trust Fund will be proposed by this subcommittee.
    Were other methods to raise revenues besides this fee proposal 
considered?
    Answer. The administration proposal reflects some changes from the 
bill proposed last year, and a number of possibilities are being 
evaluated by the IMTS Investment Strategy Team to address the solvency 
of the IWTF.
    Question. What were they?
    Answer. The IMTS Strategy Investment Team is evaluating options 
such as increasing the current fuel tax, lockage fees, and a 
combination of funding methods.
    Question. How is the economic slowdown affecting the revenues in 
the existing Trust Fund?
    Answer. Revenues generated by the fuel tax are lower in fiscal year 
2008 and fiscal year 2009 than in recent years, about $85 to $87 
million. Revenues generated for the Inland Waterways Trust Fund are 
affected by many factors such as the overall economy, fuel efficiency 
of towboat engines, market conditions for the various commodities 
transported on the inland and intracoastal waterways, etc. At least 
part of the decline in revenues in fiscal year 2008 and fiscal year 
2009 is attributable to the economic slowdown.
    Question. Will we have to slow down work even further?
    Answer. The IWTF projects and corresponding amounts proposed in the 
President's fiscal year 2010 budget are predicated on revenue 
projections of $85 million in fiscal year 2010. The budget also 
provides for using that revenue to bring the few remaining 
rehabilitation projects under construction that were exempt from cost-
sharing in the fiscal year 2009 Omnibus Act back into a 50 percent-50 
percent balance between Construction Appropriations and IWTF. Due to 
the number of projects currently underway, the large funding 
requirements of those projects, and the lack of IWTF resources, 
available revenue will be applied to ongoing projects so as to make 
reasonable progress on high performing projects.
                               everglades
    Question. I am concerned by your Everglades request of $214.3 
million for fiscal year 2010. This amount is in addition to $123 
million we provided in the fiscal year 2009 Omnibus and more than $100 
million that you have proposed in the Recovery Act. That is nearly $440 
million provided in a matter of months that is intended to be utilized 
no later than September 30, 2010.
    Your track record on expending Everglades funding has not been all 
that great. Do you really believe you can efficiently use this much 
funding this fast?
    Answer. I believe the Everglades program has reached a point of 
maturity where efficient progress can be made using the full amount of 
funds budgeted.
    Question. According to an article in the Miami Herald on June 16, 
issues between the State and Federal Governments over how the State 
will be credited for land purchases are holding up initiation of the 
Picayune Strand project planned for fiscal year 2009. You budgeted 
$21.9 million in fiscal year 2009 to start this project and included 
$40.8 million in the Recovery Act to accelerate the project. It appears 
that none of these funds can be spent based on this article, is that 
correct?
    Answer. The issues described in the Miami Herald all have been 
resolved. The Master Agreement for the Comprehensive Everglades 
Restoration Plan (CERP) is scheduled for execution on August 13, 2009, 
as is the Project Partnership Agreement (PPA) for the Picayune Strand 
project. Following execution of these agreements, the Picayune Strand 
project construction will be initiated. The Corps is prepared to award 
and obligate all of the fiscal year 2009 appropriated funds, as well as 
the ARRA funds provided for Picayune Strand, in October 2009.
    Question. If the dispute is not resolved by October 1, you may 
carry over the $62.7 million planned for the Picayune Strand element. 
In addition, your budget indicates that you have programmed an 
additional $44.4 million in fiscal year 2010. I believe that makes the 
total just over $107 million for this project in fiscal year 2010 if 
the agreements can be worked out on crediting. Is that correct? 
Realistically do you believe you can execute this funding?
    Answer. Yes, $107 million is scheduled to be obligated for work 
planned on the Picayune Strand project, using funds previously 
appropriated and funds budgeted in fiscal year 2010. The execution of 
the Master Agreement and the Picayune Strand Project Partnership 
Agreement as scheduled August 13 will clear the path for construction. 
The first construction contract on the Picayune Strand project is 
scheduled to be awarded in October 2009, and the second contract is on 
schedule to be awarded in fiscal year 2010.
    Question. Your fiscal year 2010 budget proposes two more new starts 
for a total of $70 million. I believe you also have planned new starts 
for Mod Waters that you will be carrying out for the Interior 
Department.
    It appears that there are an awful lot of planned starts and little 
action on getting anything built. I have to ask, is it prudent to 
propose two more new starts in fiscal year 2010, for funding that will 
likely have to be carried over into fiscal year 2011?
    Answer. The fiscal year 2010 budget proposes the initiation of 
construction of two additional CERP projects, the Indian River Lagoon 
South C-44 ($22 million) and Site 1 Impoundment ($25 million). The 
Corps expects to obligate all those funds in fiscal year 2010. The 
Master Agreement will provide a streamlined process toward project 
delivery. With its planned execution on August 13 of this year, the 
CERP program is taking a major step forward in delivery of planned 
projects. Design efforts on the Indian River Lagoon and Site 1 
Impoundment projects will be complete, and construction is ready to be 
initiated, consistent with project sequencing in the Integrated 
Delivery Schedule.
    Question. We have an abundance of needs for that funding in fiscal 
year 2010. Despite the merits of the Everglades project it seems 
imprudent to be ``parking'' large sums of money in the project that 
cannot be utilized. This is not like running into an unexpected 
construction delay. The Miami Herald article indicates that this 
crediting dispute has been ongoing for 4 years. Don't get me wrong, I 
believe that restoration of the Everglades is a worthwhile expenditure 
of taxpayer funds, and this subcommittee has been supportive of it. 
Since fiscal year 2000, this subcommittee has appropriated more than 
$1.3 billion to the various components of Everglades Restoration. That 
is a far bigger commitment than we have made to any other project over 
the same period. However, let's assume that everything falls into 
place. Will there be enough personnel to execute all of this planned 
work? How will this massive infusion of funding for Everglades projects 
affect future Corps budgets?
    Answer. The crediting dispute is now resolved. As for personnel 
available to execute the program, the Corps is accustomed to adjusting 
management and oversight personnel in response to changing program 
levels and has plans in place to adjust personnel levels to short term 
and long term needs of the Everglades Restoration program. Each year we 
will consider the level of construction required to support planned 
Everglades work and balance these needs against the needs of other high 
performing projects.
    Question. In fiscal year 2010, the Everglades gobbles up more than 
13 percent of the Corps construction budget. The next highest funded 
project is the Herbert Hoover Dike, also in Florida, accounting for 
about 8 percent of the construction funds. That means that more than 
one-fifth of your construction money is going to Florida. I realize 
that the work is where the work is, but you can see that this puts me 
in a little bit of a quandary. Senator Feinstein would argue that there 
is plenty of work needed for flood control projects for Sacramento and 
Los Angeles. Senator Landrieu would argue that there is plenty of work 
needed for hurricane protection for the Louisiana Gulf Coast. Senators 
McConnell and Alexander would argue that there is plenty of work needed 
to repair Wolf Creek and Center Hill Dams. Senators Schumer and 
Gillibrand would be happy to tell you about the work that could be 
accomplished on the New York and New Jersey project. It is certainly 
not my intent to pit one Member of the Senate against another, but you 
can see my dilemma. These are all authorized worthwhile projects. Yet 
you have not accommodated their needs in your budget in the manner that 
you have accommodated the Everglades. What am I to tell these members?
    Answer. The administration has made funding decisions based on the 
performance of the projects. As the higher performing projects are 
funded to completion, opportunities to consider other projects will 
expand.
    Question. The budget justification for the Everglades again shows 
more than $4 million in Corps funding for the Modified Waters Delivery 
Plan. I thought Congress was quite clear in the fiscal year 2009 E&W 
bill, that this project should be funded through the Department of the 
Interior. Why is this included in the Corps budget when Congress has 
made it abundantly clear that this project should be funded 100 percent 
by Interior?
    Answer. Completion of the Modified Water Deliveries to Everglades 
National Park Project remains a high priority for the administration. 
The fiscal year 2010 budget reflects the administration's continued 
belief that the Corps and the Department of the Interior each has a 
role to play in restoring flows to the Park.
    Question. How much of the funding that this subcommittee has 
provided for Mod Waters was carried over into fiscal year 2009? How 
much will be carried into fiscal year 2010 based on current 
projections?
    Answer. The unobligated carry over from fiscal year 2008 into 
fiscal year 2009 was $32 million because the Corps was unable to award 
a contract for modifications to Tamiami Trail as a result of 
uncharacteristically high cost growth in the construction industry at 
the time. Since that time, the project scope has been revised and all 
associated issues have been resolved. No currently available funds are 
projected to be carried over into fiscal year 2010--all USACE available 
funds will be obligated on the Tamiami Trail construction contract, 
which is scheduled for award in September 2009.
    Question. I was surprised at your recommendation of more than $100 
million for Everglades' projects in the ARRA. The Everglades projects 
consistently receive one of, if not the highest allocation of funds in 
our annual bill. These annual amounts are supposed to be very close to 
the Corps capability. You notified me in a letter dated June 15 that 
one of the projects, ``Site 1'', has been removed from the ARRA list. I 
believe this project was planned for over $41 million in Recovery Act 
funding. Can you tell me about the decision process that brought you to 
include this project in the ARRA and the decision process to remove 
this project for consideration?
    Answer. The Everglades project is one of the highest value major 
environmental projects that this administration is pursuing. The 
project is of such value that the Army sought to accelerate the current 
plan through the use of ARRA funds. As explained in the referenced 
letter of June 15, 2009, if appropriations for Site 1 are made 
available in the Energy and Water appropriations for 2010 as 
recommended by the President, then Site 1 would be eligible to receive 
Recovery Act monies, if such are available at that time. Should 
Congress not provide construction funds for Site 1 in fiscal year 2010, 
then Recovery Act funds cannot be used for that project.
    Question. How much of the funding is anticipated to be carried over 
from fiscal year 2009 to fiscal year 2010?
    Answer. The estimated carry over from fiscal year 2009 to fiscal 
year 2010 for the South Florida Ecosystem Restoration (SFER) Program is 
$31 million. The majority of carry-over funding is due to delays in 
execution of the Master Agreement and to the receipt of favorable 
contract awards.
    Question. There has been a lot of talk of the State of Florida 
purchasing the lands belonging to U.S. Sugar. If that happens, will 
that affect the analysis of the projects that have already been 
planned?
    Answer. The affects of any lands purchased by the State of Florida 
remains uncertain, since the State has not yet determined their planned 
use of any lands purchased. However, the Corps has determined that the 
U.S. Sugar acquisition is not likely to affect the majority of projects 
identified for early implementation in the Integrated Delivery 
Schedule. Because of its proximity to the lands being acquired and 
potential affects to planned CERP features, the Everglades Agricultural 
Area Phase 1 Reservoir Project Implementation Report development has 
been suspended pending the outcome of the sugar purchase and assessment 
of affects planned use of U.S. Sugar lands may have.
    Question. Put more simply, this would be a major change without 
project conditions. How will that be incorporated into the design of 
current and future projects?
    Answer. The projects currently under construction and in design are 
not likely to be affected. However, it is possible that the State's 
land acquisitions may provide opportunities to improve the CERP Plan. 
The land purchase provides several key areas that may allow for 
substantial savings in the future.
    Question. Might this purchase result in the need for a major 
reevaluation of the suite of projects being considered for the 
Everglades?
    Answer. The projects currently under construction and in design are 
not likely to be affected. If the State indicates its intent to make 
the lands available for potential use in the CERP, the Corps would 
prepare a report to assess these opportunities, which would then be 
evaluated in detail in Project Implementation Reports and proposed for 
authorization.
    Question. There has been considerable discussion of global climate 
change and sea level rise in the media. Some of the more extreme 
projections I have seen show much of Southern Florida under water. 
While that is a possibility, how is the design of the current projects 
considering global climate change?
    Answer. The September 2008 Biennial Report to Congress recommended 
that additional studies be undertaken to determine sensitivity of 
restoration efforts to sea level rise. A CERP Technical Data report is 
now being developed to identify the potential impacts for a range of 
sea level rise scenarios. The initial draft of this Technical Report is 
expected to be available in late 2009.
                                 ______
                                 
            Questions Submitted by Senator Mary L. Landrieu
    Question. In late 2005, following hurricanes Katrina and Rita, 
Congress directed the Secretary of the Army (Public Laws 109-103 and 
109-148), acting through the Chief of Engineers, to conduct a 
comprehensive hurricane protection analysis and design in close 
coordination with the State of Louisiana and its appropriate agencies; 
to develop and present a full range of flood control, coastal 
restoration, and hurricane protection measures exclusive of normal 
policy considerations for South Louisiana; to consider providing 
protection for a storm surge equivalent to a Category 5 hurricane; and 
to submit a preliminary report within 6 months of enactment and final 
technical reports within 2 years. We now refer to this report as the 
LACPR or Louisiana Coastal Protection and Restoration Study or the 
``Category 5 Report''.
    Mr. Secretary and General, I understand that this report is now 
under further public review, but can you please detail for this 
subcommittee why is this report is nearly 2 years late? Additionally, 
please detail how the money appropriated for this report has been 
spent? Lastly, when the report is transmitted--will it contain specific 
recommendations for the authorizations of projects?
    Answer. Inserted below is a letter that was forwarded on February 
9, 2009 to the President of the Senate regarding the progress of the 
Louisiana Coastal Protection and Restoration (LACPR) Technical Report. 
It also discussed actions required to complete the technical report.
    As indicated in the letter, the Corps has worked diligently to 
ensure that the report addresses the entire scope of issues required by 
statute, including developing a full range of flood control, coastal 
restoration, and hurricane protection measures without regard to normal 
policy considerations related to the economic justification of 
projects, as well as to submit a final technical report for protection 
from Category 5 storm events.
    The Corps also has worked to coordinate its efforts with State and 
Federal agencies, obtain independent external peer review, and 
incorporate lessons learned from the Interagency Performance Evaluation 
Task Force.

                            Department of the Army,
                         Office of the Assistant Secretary,
                                  Washington, DC, February 9, 2009.
Honorable Joseph R. Biden, Jr.,
President of the Senate,
U.S. Capitol Building, Room S-212,
Washington, DC 20510-0012.
    Dear Mr. President: This letter is to advise you of the current 
progress of the report for Louisiana Coastal Protection and Restoration 
(LACPR) that is being prepared in response to the Energy and Water 
Development Appropriations Act of 2006 and the Department of Defense, 
Emergency Supplemental Appropriations to Address Hurricanes in the Gulf 
of Mexico, and Pandemic and Influenza Act, 2006.
    These statutes directed the Chief of Engineers to conduct a 
comprehensive hurricane protection analysis and design; to develop a 
full range of flood control, coastal restoration, and hurricane 
protection measures exclusive of normal policy considerations for South 
Louisiana; and to submit a final technical report for ``Category 5'' 
protection. The final report was originally scheduled for completion in 
December 2007. However, as described in my letter to you of December 
20, 2007, due to the magnitude and scope of the work being considered, 
the complexities of the study, and the necessity to provide a clear and 
fully informed report, additional time was needed to revise the draft 
technical report and to ensure its full coordination with State and 
Federal agencies, including critical independent external peer review 
by the National Academy of Sciences (NAS).
    While this study was underway, we incorporated the extensive 
knowledge and lessons learned from the Interagency Performance 
Evaluation Task Force (IPET) which itself was conducted under the 
review of the American Society of Civil Engineers and the independent 
peer review of NAS. Many of the models and tools that were developed by 
the IPET team provided a critical foundation to this study. Included 
within this study will be a systems analysis of both LACPR and the 
Mississippi Coastal Improvement Program (MSCIP). This continued 
analysis will ensure that we maintain a systems perspective for the 
region.
    The study authorization directed that the recommendations of this 
study not be constrained by normal policy considerations (i.e., not be 
constrained by the ratio of their projected costs to their projected 
benefits). U.S. Army Corps of Engineers (Corps) policy is to recommend 
to Congress a single plan that maximizes net economic benefits in 
meeting the study objectives. Without such a definitive discriminator 
the Corps' design recommendations could default to simply the most 
effective means of providing the required protection, but this approach 
undoubtedly would come at great cost, both to the Treasury and to the 
ecosystem. It is apparent, therefore, that decisions made by Congress 
regarding the activities to be authorized will need to be supported by 
a report that arrays the available information in a way that the 
relative advantages and disadvantages of the various courses of action 
can be readily displayed. An undertaking of such scope and complexity 
as providing comprehensive storm surge protection within a dynamic 
coastal and riverine environment and within an environmentally and 
socially-sensitive framework is an undertaking that requires supporting 
information of far greater scope and complexity than has ever been 
developed for other Civil Works projects.
    Consequently, a new tool to support the decisionmaking process has 
been developed by the Corps. The ``risk informed decision framework'' 
was utilized in both Gulf Coast studies to array the various 
alternatives that are considered most likely to be implementable, along 
with the assessments of various stakeholders, in a way that 
communicates the relative advantages and disadvantages of each. As a 
result of this process, decisionmakers should be able to make a well-
informed decision as to which alternatives can be knit into a holistic 
and systematic solution to the problems and are worthy of further 
pursuit.
    Over the past year, the Corps has worked in partnership with the 
State of Louisiana and other Federal agencies to refine the final array 
of alternatives which would make the Louisiana coast more resilient to 
future storm events. Tremendous efforts have been undertaken by the 
Corps and our partners toward the production of the final report. 
Approximately 20 meetings were held across the Louisiana coast with 
stakeholders and our Federal partners. There was also a critical need 
to ensure that the Corps completed an independent external peer review 
by the NAS. The NAS has provided initial comments and will be 
completing a final review within the next few months. Its initial 
comments are being addressed in the revisions to the technical report.
    In the coming months, the Corps will circulate draft and final 
reports, formerly coordinate the final report with the Governor of 
Louisiana and the Federal agencies, and undertake a final review 
process. The final report will include an array of alternatives with 
evaluation results for each alternative and a comparison of top-ranked 
plans based on input from stakeholders. This will include a ranking of 
alternatives that provide hurricane and storm risk reduction from an 
array of ``Category 5'' storm events. Due to the size and complexity of 
the Louisiana coastal system, a preliminary level of design and cost 
information is included, but a programmatic environmental impact 
statement will not be part of the submission package. The final 
technical report will provide a basis for sound, risk based, 
consideration of possible actions to manage storm surge related risks 
and will take into account previously authorized projects and those 
requiring further analysis.
    The Corps advises me that it will be in a position to submit a 
final report that is responsive to congressional and administration 
directions to this office by August 31, 2009. The Corps will also 
provide an implementation framework with the report. Once the Corps 
provides the complete documentation for the LACPR study, my office and 
the Office of Management and Budget will evaluate the report and 
provide an administration position on further recommendations. I am 
providing a copy of this letter to the Senate Subcommittees on Energy 
and Water Development, and Transportation and Infrastructure.
            Very truly yours,
                                    John Paul Woodley, Jr.,
                                   Assistant Secretary of the Army.
    Since the 2005 authorization, the Corps has obligated and expended 
approximately $22,769,000 on the LACPR Project, as follows:

------------------------------------------------------------------------------------------------------------------------------------------------
Planning and Project Management............................   $9,561,000
Engineering & Design.......................................    3,944,000
Socioeconomics and Analysis................................    2,919,000
Environmental Studies......................................    1,005,000
Real Estate Investigations.................................       52,000
Multi-Criteria Decision Analysis (MCDA)....................      849,000
Public Outreach............................................      783,000
Other Federal Agencies.....................................      980,000
Report Development.........................................      535,000
Agency Technical Review (ATR)..............................      765,000
External Peer Review.......................................      876,000
Dutch Shadow Plan..........................................      500,000
                                                            ------------
      Total................................................   22,769,000
------------------------------------------------------------------------

    In lieu of specific construction recommendations, the technical 
report recommends implementation options and a path forward beyond the 
technical report.
    The report will require Congress and the administration to make 
tradeoffs with the input of other Federal agencies, the State, local 
government, other stakeholders, and the public. These decisions will 
involve billions of dollars and will impact the coast and its people 
over the next 50 to 100 years.
    All of the final alternative plans may have social and economic 
impacts requiring further evaluation and stakeholder input. The Corps 
will implement recommended projects in the most expeditious manner 
available by maximizing the use of available construction and study 
authorities (i.e., modifications of on-going projects/studies, post-
authorization change reports, or new authorizations).
    Question. In WRDA 2007, the Congress authorized the Louisiana 
Coastal Area or LCA. This authorization provides --for the first time--
authorization for coastal wetlands restoration in Louisiana. What is 
the status of this program in general and what is the timetable for 
creating a master plan under this program as required by the act? Has a 
task force been established? If not, why?
    Answer. The authorization for the Louisiana Coastal Area as 
identified in the Chief's Report dated January 31, 2005 required 
additional investigations prior to the initiation of construction. 
Overall, 12 project investigations are underway with 10 of those 
investigations starting after the enactment of WRDA 2007. I am advised 
that the investigations for the features authorized in section 
7006(e)(3) of WRDA 2007 are on track for completion of a Chief's Report 
by December 31, 2010 (as required by section 7006(e)(3)(B). The 
investigations for the features authorized by section 7006(e)(1) are 
scheduled to be completed by November 2011. The investigation for the 
Beneficial Use of Dredged Material Program authorized in section 
7006(d) is scheduled to be completed by July 2010. The investigation 
for the Barataria Basin Barrier Shoreline feature authorized by section 
7006(c) also is scheduled to be completed by July 2010, although issues 
remain to be resolved. The project management plans for the 
investigations for the other features that require submittal of a 
construction report, as outlined in section 7006(c), are being 
coordinated with the State of Louisiana.
    WRDA 2007, title VII, section 7002 provides for the development of 
a Comprehensive Plan. Given the importance of and the extensive, 
ongoing efforts to implement the restoration plan authorized in title 
VII, no work will be initiated to develop a comprehensive plan until 
such time as funds are appropriated.
    Section 7004 of WRDA 2007 establishes the Coastal Louisiana 
Ecosystem Protection and Restoration Task Force (Task Force), but to 
date, funds have not been appropriated to implement section 7004. In 
the interim, the Corps New Orleans District and Mississippi Valley 
Division have successfully engaged Federal and State agency 
representatives at the regional level throughout the study process for 
the Louisiana Coastal Protection and Restoration study and the 
Louisiana Coastal Area program. Similarly, Corps Headquarters has 
engaged Washington-level Federal Principals throughout the study 
process for these efforts. These meetings have been an efficient and 
effective way to communicate and solicit input from the agencies. Until 
funds are appropriated for the Task Force, the Corps will continue to 
engage the Federal and State agencies through the regional working 
group and Federal Principals Group.
    Question. The Corps of Engineers is currently re-evaluating 
Morganza to the Gulf Hurricane Protection project due to projected cost 
overruns. This situation is unacceptable. Congress has done its job by 
authorizing this project and the Corps should move quickly to sign the 
Record of Decision, remove any remaining obstacles and get to work. 
What is the status of this re-evaluation? Will the State and local 
government receive credit for the nearly $200 million they have 
appropriated for this project? In the long term, how with the Corps 
work with State and local partners to allow them to move forward with 
interim measures of protection on critical Federal projects and receive 
credit for this critical work?
    Answer. Section 1001(24) of the Water Resources Development Act of 
2007 (WRDA 2007) authorized 100-year level of risk reduction for 
Morganza to the Gulf based on the Chief of Engineer's Reports completed 
on August 23, 2002, and July 22, 2003. Due to changes in hydraulic 
conditions and design criteria established following Hurricanes Katrina 
and Rita in 2005, a revised project cost estimate was completed in 
October 2008. In this analysis the Corps applied the lessons learned 
and engineering design recommendations for improving the performance of 
hurricane and storm damage risk reduction systems that were identified 
by the Interagency Performance Evaluation Task Force (IPET). The 
results of the revised project cost estimate clearly show that the cost 
to provide post-Katrina 100-year level of risk reduction will exceed 
the authorized project cost by more than 20 percent, thereby exceeding 
the limit imposed by section 902 of WRDA 1986 and triggering the 
requirement for additional authorization. A Post Authorization Change 
(PAC) Report is being prepared to reaffirm the Federal interest and 
seek additional authorization. The PAC Report is scheduled for 
completion by December 2012. Initiation of construction of the Morganza 
to the Gulf project will be dependent upon additional Congressional 
authorization and appropriation of construction funds.
    As is the case for all Work-In-Kind credit, the non-Federal 
sponsor's design and construction will be reviewed for compliance with 
the Hurricane and Storm Damage Risk Reduction System guidelines, and a 
credit determination will be made on a case-by-case basis for each 
project feature.
    In order to maximize the amount of Work-In-Kind credit our State 
and local partners may receive, the Corps will continue to help our 
partners comply with the Hurricane and Storm Damage Risk Reduction 
System guidelines, considered the Federal standard. Specifically, the 
Corps will review and comment on the local sponsor's real estate 
acquisitions, relocations and engineering designs in a timely manner. 
The Corps will also conduct periodic field inspections on the local 
sponsor's construction sites, provide inspection reports, and work with 
the sponsor if any remedial actions are required to meet the Federal 
standard. In order for credit to be awarded, the project will have to 
be reauthorized, construction funds will have to be appropriated, a 
Record of Decision will have to be signed and a Project Partnership 
Agreement (PPA) will have to be executed.
    For any work performed by the our State and local partners in 
advance of the execution of a project partnership agreement to be 
eligible to receive a credit, the reauthorization of the project must 
include a provision that authorizes the Government to provide credit to 
the sponsor for the reasonable and allocable costs of the work 
performed in advance of the execution of the project partnership 
agreement and that the provision of such credit shall be subject to a 
finding by the Government that the said work is compatible with the 
Federal project, is constructed to a design standard that is acceptable 
to the Chief of Engineers, is economically justified and 
environmentally acceptable.
    Question. The Harbor Maintenance Trust Fund (HMTF) was created to 
provide the necessary funding to keep our harbors, ports and waterways 
safe and navigable; yet, the HMTF takes in far more revenues each year 
than it spends despite a backlog of approved projects. (NOTE: In fiscal 
year 2009, due to multiple supplemental appropriations bills including 
those for natural disasters, HMTF expenditures equaled revenues, but 
this is the rare exception, and our ports shouldn't be put in a 
position where they should have to depend on such supplementals simply 
to receive funding for necessary projects). Now that there is a 
substantial balance in the fund, don't you think annual expenditures 
should at least equal annual revenues? Do you think the HMTF should be 
restructured in order to more effectively use the funds collected?
    Answer. The overall Operation and Maintenance (O&M) program is 
prioritized for all missions, including navigation, flood risk 
management, hydropower, etc. O&M funding is budgeted for the diverse 
Civil Works missions based on performance metrics and priorities. The 
O&M budget includes funding for critical maintenance of the highest use 
navigation channels and harbors. If the HMTF funded activities were to 
be increased, other critical mission areas would be adversely impacted.
                                 ______
                                 
            Questions Submitted by Senator Robert F. Bennett
              ozark-jeta taylor hydropower rehabilitation
    Question. I am aware that it is the Corps's policy, and that of 
this Congress, to enter into Continuing Contracts only when they are 
necessary for efficient construction. Congress has limited the Corps 
use of continuing contracts to insure that they are only used when 
necessary, and with the understanding that the Corps will budget these 
contracts efficiently through to completion. You have not budgeted for 
the continuation of the Ozark-Jeta Hydropower Rehab project, which will 
deliver clean, renewable energy into the foreseeable future when 
finished, even as you have budgeted extraordinary amounts for the 
Everglades where the benefits are much less tangible. Further, my 
understanding is that you require only $30 million to complete the 
contract and it will cost $20 million to terminate the contract. To not 
budget to continue this contract appears to be not only bad government, 
but also to contradict past Corps policy regarding budgeting for 
continuing contracts. Please provide the rationale for failing to 
budget to continue the work on the Ozark-Jeta Hydropower Rehab 
Continuing Contract?
    Answer. The Ozark-Jeta Rehabilitation Contract was not funded this 
year because the decision point for allocation of funding to high-value 
projects was made on a performance basis within available resources. 
The Ozark-Jeta Rehabilitation project has a benefit-cost ratio (BCR) of 
1.8, which fell below the 2.5 BCR funding threshold.
    Question. The work for the Ozark-Jeta Hydropower Project is almost 
two-thirds complete. Not only has the Federal Government invested more 
than $44 million to date, the non-Federal sponsors for this project, 
the Southwestern Power Marketing Association, have invested $20 million 
of their money. By your estimate, it will cost $20 million to pay the 
contractor to terminate this contract. Do you have any plans to 
reimburse the SWPA or their rate payers for their out-of-pocket costs? 
Did you consider the impact of this decision on the rate payers?
    Answer. As sponsors and signatories to the Project Cooperation 
Agreement for the project, the SWPA and/or their rate payers are 
subject to paying their share of the costs incurred by the project, 
even those for termination for convenience without reimbursement by the 
Corps or the Federal Government. The Army does not have authority to 
reimburse SWPA.
    Question. I understand that at least one turbine has already been 
dismantled and that an additional turbine has been ordered. What do you 
plan to do with the turbine that has been ordered--let it rust?
    Answer. The Army is currently working with the contractor to assess 
the project schedule to incorporate current funding constraints. Our 
goal is to develop a plan that will allow for beneficial use of all 
funded features of the project.
    Question. How do you expect additional funds ``to become 
available'' if you don't budget for the project? Are you leaving it up 
to this subcommittee to fix this problem? Does it require a 
congressional add, which is disparaged by the administration, to 
correct this lapse in judgment on the Government's part?
    Answer. The Army is looking at other options for funding of the 
project in fiscal year 2010. The Army is working with the Southwestern 
Power Administration, the agency in the Department of Energy 
responsible for marketing the power generated at Ozark, to identify 
``customer funding'' to continue contractor activities. The Army is 
also assessing the potential to fund fiscal year 2010 scheduled work 
with ARRA funding. If neither of these possibilities work out, the 
project will be put in caretaker status subject to funds coming 
available.
    Question. Mr. Secretary, How much energy will be lost as a result 
of not funding this project?
    Answer. According to the Southwestern Power Administration, the 
amount and value of the lost energy due to forced outages at Ozark for 
the last 2 fiscal years is 82,420 MWh valued at $5.1 million in fiscal 
year 2007; and 153,550 MWh valued at $9.5 million in fiscal year 2008. 
That rate of loss would continue or increase.
    Question. Mr. Secretary, What will happen to the Corps and contract 
workers when this project is terminated?
    Answer. This project is being constructed concurrently with the 
Webbers Falls Powerhouse rehabilitation project. If the Ozark 
Powerhouse Rehabilitation work is suspended or terminated, Corps and 
contract workers will be shifted from Ozark to Webbers Falls. At this 
time, the Corps does expect any employees will be terminated.
    Question. Mr. Secretary, I notice that you have funded the Richard 
B. Russell Powerhouse Rehab project when it has a benefit-cost ratio of 
1.9 which is lower than the BCR of Ozark-Jeta, AR project which is 2.4. 
Can you explain why these two projects which appear to be the same were 
treated differently in the budget?
    Answer. While Richard B. Russell is a Hydropower project on the 
Savannah River in GA and SC, the item budgeted for fiscal year 2010 is 
an environmental mitigation piece of the project. The work essentially 
deals with environmental monitoring of the oxygen injection system. 
Funds are budgeted for procurement and fabrication of 50 percent of the 
Government furnished equipment associated with the underwater diffuser 
system. For the record, the Ozark-Jeta project has a current benefit to 
cost ratio of 1.8.
                             budget request
    Question. In your press release on the fiscal year 2010 budget you 
state that ``The budget represents the prudent level of investment in 
the Nation's water infrastructure and in the restoration of its aquatic 
resources. I am proud to present it.''
    What exactly are you proud of? Is it the more than 100 on-going 
construction projects funded in fiscal year 2009 that are not addressed 
in this budget, or is it the $227 million decrease from what we 
provided in the fiscal year 2008 Omnibus?
    Answer. I am proud of the fact that the fiscal year 2010 budget 
provided an increase of nearly 9 percent above previously budgeted 
levels for the Corps of Engineers water program. The budget includes 
$5.125 billion in new Federal funding for the Civil Works program, the 
highest budget ever proposed for the Civil Works program.
    The fiscal year 2010 budget provides critical funding that will 
enable the Corps to continue to contribute to the Nation's efforts to 
revitalize the economy, and restore the environment.
    Question. Is it prudent not to provide funding for projects that 
have been under construction for years?
    Answer. Projects funded through the fiscal year 2010 budget are the 
highest performing projects in their respective categories, and it is 
important to fund these projects as efficiently as possible.
    Question. What are we supposed to tell the project sponsors that 
are sharing in the costs of these projects?
    Answer. The administration has made funding decisions based on the 
performance of the projects. As the higher performing projects are 
funded to completion, opportunities to consider other projects will 
expand.
    Question. It will cost them more. It will cost us more. Again, how 
is this prudent?
    Answer. By focusing available funding on the highest performing 
projects in their categories, those projects can be completed more 
efficiently and their benefits brought on line sooner.
                                 ______
                                 
           Questions Submitted by Senator George V. Voinovich
    Question. Should the Great Lakes Navigation System be funded as a 
``system'' the way the Mississippi River System is?
    Answer. The Great Lakes projects are individually authorized and 
are considered coastal projects. While there is some interdependence of 
the Great Lakes ports and harbors on each other, the Great Lakes system 
is non-linear and many Great Lakes ports and harbors can operate 
independent of other harbors. Conversely, the inland navigation 
facilities on the Mississippi River, Ohio River, and other inland 
waterways are linear and interdependent on each other, and a single 
closure in the system will stop all traffic. For other than short-haul 
movements, the commercial towing vessels must transit through many 
locks and dams to move from the point of origin to the destination 
point and all the inland navigation infrastructure along the way must 
be functional for the trip to occur.
               the american recovery and reinvestment act
    Question. It is my understanding that the Corps used ``geographic 
diversity'' when allocating stimulus funds. However, the Great Lakes 
region, encompassing eight States, received only 2 percent of the $4.6 
billion in civil works funding. Can you explain?
    Answer. The geographic diversity element was considered in the 
sense that the entire United States was canvassed for projects. ARRA 
projects are funded in 49 States, the District of Columbia, and Puerto 
Rico.
    When the bill was enacted, the USACE received $4.6 billion in 
American Recovery and Reinvestment Act (ARRA) funds in six different 
appropriation accounts. Each account has a purpose directed in statute 
and ARRA funding was directed or otherwise targeted to account 
capability. The projects selected represent a set of productive 
investments that will contribute to economic development and aquatic 
ecosystem restoration. The Civil Works projects will further these 
Recovery Act stated purposes of preserving and creating jobs and 
promoting recovery as well as to invest in transportation, 
environmental protection and other infrastructure that will provide 
long term economic benefits.
    The Corps followed the Recovery Act's guidance which included 
commencing expenditures and activities as quickly as possible 
consistent with prudent management. The Corps made its allocation of 
Recovery Act construction funds based on the economic and environmental 
return of its ongoing projects. The projects will achieve the purposes 
of the Recovery Act to commence expenditures quickly by investing in 
infrastructure that will provide long term economic and environmental 
benefits to the Nation. Moreover, the projects are fully consistent 
with the President's direction to ensure that Recovery Act funds are 
spent responsibly and transparently.
    The projects also meet the five criteria enumerated in the 
Congressional report accompanying the Recovery Act, namely that the 
projects:
  --Be obligated/executed quickly;
  --Result in high, immediate employment;
  --Have little schedule risk;
  --Be executed by contract or direct hire of temporary labor; and
  --Complete a project phase, a project, an element, or will provide a 
        useful service that does not require additional funding.
                                 ______
                                 
      Questions Submitted to Lieutenant General Robert Van Antwerp
             Question Submitted by Senator Mary L. Landrieu
    Question. A large amount of goods move in and out of our Nation's 
ports, and these ports play a vital role in our Nation's economy. 
Louisiana has some of the largest and most critical ports in our entire 
Nation. Navigable and safe ports are also essential to our Nation's 
security. Do you think the Army Corps of Engineers should take national 
security into account when it prioritizes funding for operations and 
maintenance projects? How will this new administration ensure that our 
ports are secure and maintained for this critical commerce?
    Answer. The impacts of a potential waterway closure due to loss of 
channel dimensions and/or lock/structure failure and its criticality to 
the navigation infrastructure are considered and weighted along with 
economic, environmental, safety, and industry impact factors. In 
addition, as a response to the Maritime Transportation Security Act of 
2002, Corps locks were assessed for criticality and risk reduction to 
infrastructure and security upgrades were implemented at critical locks 
and maintained through project operations and maintenance funds.
                                 ______
                                 
            Questions Submitted by Senator Robert F. Bennett
                          civil works program
    Question. In your role as the Chief of Engineers, what do you see 
as the major water resource challenges facing this Country in the 
future.
    Answer. Some of the major challenges are in the area of developing 
new strategies to operate and manage existing water infrastructure in a 
sustainable manner that not only meets the Nation's contemporary water 
resources needs, but also adapts to changing conditions such as climate 
change and demographic shifts to ensure such resources are available 
for future generations. Competing water uses must be balanced to 
provide multiple benefits such as economic security, environmental 
health, social well-being, and public safety. For example, navigation 
projects must be designed and operated to not only safely and 
efficiently convey vessels and cargo to ports and waterways, but do so 
in an environmentally responsible manner. Flood risk management 
projects must simultaneously reduce flood risks and sustain healthy 
ecosystems. To address these competing demands, the Corps is beginning 
to undertake a new overarching strategy called Integrated Water 
Resources Management, which seeks to foster equitable, efficient 
management and sustainable use of water. There is much work to be done 
but it will lead to significant gains in these areas.
    Question. What level of funding would be necessary to maintain the 
progress realized in the Civil Works Program through the enacted 
appropriations levels for the past couple of years?
    Answer. This is truly a difficult and challenging question, in this 
time of significant funding for the Corps of Engineers Civil Works 
program. The Corps is currently working with over $20 billion that have 
been provided through a variety of appropriations, including not only 
regular Energy and Water appropriations, but also the American 
Reinvestment and Recovery Act and emergency supplemental funding. That 
is an unprecedented amount of money for the Corps of Engineers.
    Question. If the administration's budget proposal is enacted, what 
will be the impact on meeting the Army Corps' O&M backlog? The 
construction backlog?
    Answer. The fiscal year 2010 budget does not reduce the magnitude 
of the O&M and construction backlog. However, the budget is the 
appropriate mix of Construction and O&M funding and will enable the 
Corps to meet essential construction, operation, maintenance, and 
rehabilitation requirements in the Civil Works program. The O&M backlog 
and the Construction backlog do not represent a prioritization of work 
within either of the two accounts or between the accounts. The priority 
of work in the backlog varies widely.
    Question. What is the percentage of the Nation's commerce that come 
into or leaves this Country that goes through a Corps built and 
maintained harbor?
    Answer. The Corps of Engineers has 299 deep draft coastal harbor 
channels. Virtually all the waterborne cargo passes through a Corps 
navigation project, and anecdotal evidence indicates the vast majority 
of all import and export commerce passes through them. The Corps of 
Engineers doesn't track waterborne commerce in a way that enables me to 
provide a more specific answer to your question.
    Question. Could you characterize the proportion of the 
discretionary budget of the Federal Government that is directed toward 
building and maintaining this Country's water infrastructure today 
versus 30 years ago?
    Answer. Multiple agencies, including the Department of the Interior 
(Bureau of Reclamation), were provided resources for building and 
maintaining the Nation's water infrastructure. The Corps of Engineers, 
in fiscal year 1979, was provided 1 percent of the discretionary budget 
of the Federal Government for civil works projects and programs.
    In fiscal year 2009, 1.07 percent of the Federal Government's 
discretionary budget was provided for the Corps of Engineers. However, 
given the magnitude of changes in the Nation and in Federal programs, 
it is not clear that these percentages are meaningful.
    Question. Could you provide a historical perspective on the value 
of the Nation's inland waterways for national security and economic 
security?
    Answer. Navigation has been very important to national security and 
economic security for over 200 years. The benefits of navigation accrue 
to the Nation as a whole, with 31 States directly served by the 12,000 
mile commercial inland waterways. This helps to explain the major 
Federal interest in our Inland Marine Transportation System (IMTS).
    The IMTS is a major transportation mode and the Nation's industrial 
and agricultural sectors would be profoundly affected without an 
efficient, effective and safe Inland Marine Transportation System. The 
waterway system annually handles well over 600 million tons of cargo 
valued at over $112 billion. This includes energy commodities such as 
coal; petroleum and related products; construction materials; grain and 
other farm products, which move by waterways to ports for export; 
industrial and agricultural chemicals; forest products; and 
manufactured goods.
    The waterways play an important role is the movement of military 
equipment, supplies, fuel, and many defense-related raw materials and 
finished products. Over the years since World War II the use of the 
waterway system for national security purposes has shifted from rapid 
mobilization to a more lengthy mobilization. The waterway system now 
plays a role in the long-term or advance movement of military supplies, 
cargo, equipment, fuel, and industrial materials. With a longer 
mobilization scenario there is increased consideration of civil and 
industrial as well as military transportation needs. The interpretation 
of national defense transportation needs now includes three components: 
traditional military mobility, industrial mobility to support a 
conflict, and support for a mobilized civil economy. This paradigm 
places additional emphasis on the use of the inland waterways.
    Question. How much unobligated funding did the Corps carry over 
from fiscal year 2008 to fiscal year 2009?
    Answer. Unobligated funding carried over in the accounts receiving 
annual appropriations is as follows.

                        [In millions of dollars]
------------------------------------------------------------------------------------------------------------------------------------------------
Investigations.............................................         92
Construction...............................................      1,461
Operation & Maintenance....................................        432
Mississippi River and Tributaries..........................         95
Formerly Utilized Sites Remedial Action Program............          5
Flood Control and Coastal Emergency........................      3,516
Regulatory Program.........................................         12
Expenses...................................................          1
                                                            ------------
      TOTAL................................................      5,614
------------------------------------------------------------------------

    These figures do not include funds appropriated in Public Law 110-
252 and not available for until fiscal year 2009, or funds appropriated 
in Public Law 110-329 that were not available until fiscal year 2009.
    Question. To what do you attribute this large carryover?
    Answer. About $4.4 billion of the total is supplemental funds 
appropriated to respond to emergency events. Often, obligations for 
project repairs and restoration activities following emergency events 
extend beyond the fiscal year in which the emergency events occur. In 
particular, about $3.5 billion of the supplemental funds carried over 
are Construction funds and Flood Control and Coastal Emergency funds 
being used in the program to protect the New Orleans metropolitan area, 
which is scheduled for completion in fiscal year 2011.
    About $1.2 billion is regularly appropriated funds being carried 
over on a variety of projects. This level of carryover is not 
unexpected, given that funds by and large are remaining on the projects 
for which they were provided, with minimal reprogramming compared to 
years before fiscal year 2006.
    Question. Do you anticipate another large carry over balance from 
fiscal year 2009 to fiscal year 2010?
    Answer. In fiscal year 2009 the Corps received, in addition to 
regular appropriations of $5.4 billion, supplemental funding of $9.3 
billion under Public Laws 110-252, 110-329, and 111-32, plus $4.6 
billion of funding under the American Recovery and Reinvestment Act, 
2009, Public Law 111-5. Of the supplemental funding, $5.8 billion is 
for the New Orleans metropolitan area, and much of the rest is for 
repairs and restoration activities that can extend into fiscal year 
2010.
    In addition, just under one-half of the Recovery Act funding will 
be obligated in fiscal year 2009. Therefore, there will be significant 
carryover into fiscal year 2010.
                                 ______
                                 
           Questions Submitted by Senator George V. Voinovich
                              great lakes
    Question. The Corps has dredged at less than the ``break-even'' 
line for virtually every year in the last decade for the Great Lakes. 
The only year, fiscal year 2008, in the last decade when the Corps 
dredged above the break-even point occurred because Congress added 
significant funding for that purpose. The Corps responded with a 
proposed administration Great Lakes budget for fiscal year 2009 that 
drastically cut the enacted amount. Please explain why there is so much 
resistance to dredging at or above the break-even point? Is it common 
in other regions to hit the break-even level of dredging only 
occasionally over an extended period of years?
    Answer. The President's fiscal year 2010 budget for navigation 
Operation and Maintenance for the Great Lakes is a $4 million increase 
over the fiscal year 2009 program. Competition for Federal funds is 
very keen and gets tighter each year. Our Operation and Maintenance 
(O&M) funding requirements continue to grow as the infrastructure ages, 
newly constructed projects are added to our inventory, and costs 
increase. The Corps budgets for many worthwhile operation and 
maintenance needs across the entire spectrum of Civil Works projects by 
prioritizing projects based on maximizing benefits. In navigation, the 
focus is on harbors and waterways that have high volumes of commerce.
    Question. The 2008 Army Corps document, Great Lakes Navigation 
System: Economic Strength to the Nation, describes the Great Lakes as 
having a dredging backlog that has ``grow[n] to an unprecedented level 
in major navigation channels and harbors.'' How can the Corps ever 
address the estimated $200 million Great Lakes dredging backlog when 
the Corps keeps dredging at less than the break-even level?
    Answer. The Corps has not been able to keep pace with annual 
channel sedimentation and within a relatively short period (e.g., 5 
years) cannot address prior years' accumulations (backlog) under 
historical funding levels. In fiscal year 2008 the Corps reduced the 
backlog in dredging quantity from 18 million cubic yards to 17 million 
cubic yards. Once the Corps completes the dredging funded by the fiscal 
year 2009 Omnibus and Recovery Act appropriations, the backlog will be 
reduced to 15.3 million cubic yards. These appropriations enabled us to 
address the backlog dredging needed to move toward a high performing 
Navigation system.
    The Corps could address the dredging backlog by planning other 
possible alternative control measures including higher efficiencies and 
a Demonstration Regional Commercial Efficiency Dredging Program. While 
the Corps always seeks to execute our programs in the most efficient 
manner possible, efficiencies addressing the dredging process are 
currently under review. For example, working with the States and other 
agencies toward less restrictive environmental windows to increase the 
time available to dredge in particular harbors will help reduce costs. 
The Corps plans to work with dredging contractors to find ways to 
reduce costs and plan to work with States to explore reducing 
restrictions on open water disposal and thus reduce filling rates for 
expensive Confined Disposal Facilities.
    The Corps will renew emphasis on beneficial use of dredged material 
and to open a dialog with State agencies for a scientifically-driven 
review of open water disposal policies to ensure that the environmental 
protections are achieved at the least cost to the taxpayers. A 
technical plan ``Demonstration Regional Commercial Efficiency Dredging 
Program'' using highly efficient, more technically advanced equipment 
to augment the typical annual dredging process will be prepared. This 
is the most promising prospective remedial action to address the 
dredging backlog but must be worked in concert with the other potential 
efficiency improvements. Solutions will be planned considering other 
competing national needs which have historically challenged resourcing 
backlog projects in the Great Lakes; however our goal is unwavering to 
meet the needs of waterborne commerce on the Great Lakes by making 
steady progress in reducing the dredging backlog.
    Question. Does the Corps consider the ``source of funds'' when 
making budget decisions? For example, shouldn't a project funded by 
industry via the Harbor Maintenance Trust Fund receive a higher 
priority than one funded by the taxpayers or cost shared by the 
taxpayer? Why doesn't the Corps spend what it collects from the Harbor 
Maintenance Trust Fund on eligible projects?
    Answer. The Corps of Engineers has a number of cost-sharing 
authorities for the Civil Works program. The source of funds is just 
one of many factors considered in the budget development process. The 
Corps of Engineers' overall Operation and Maintenance (O&M) program is 
prioritized for all missions, including navigation, flood risk 
management, hydropower, etc. Funding is budgeted for the diverse Civil 
Works missions based on various metrics and priorities within available 
resources,. and other critical mission areas would be adversely 
impacted if the funding for those activities were reduced to 
accommodate additional funding for HMTF funded activities.
    Question. The Corps uses different metrics to prioritize projects. 
Would it make sense to use the same metric for all parts of the 
country? Would transportation rate savings be a more appropriate metric 
than tons or ton-miles? Should the same metric be used for domestic 
transportation systems and a different metric for import/export 
systems? Should all tons be treated equally or should a domestic ton 
that creates value for Americans on both ends of the trip be treated 
differently from one that imports products while exporting jobs.
    Answer. Harbors and waterways are vital components of the Nation's 
transportation system. The Corps funds many worthwhile maintenance 
needs across the entire spectrum of Corps of Engineers Civil Works 
projects by prioritizing projects based on maximizing benefits. In 
navigation, the focus is on harbors and waterways that have high 
volumes of commerce. Funding is also based on other factors, 
particularly those that serve as critical harbors of refuge, 
subsistence harbors, facilitate U.S. Coast Guard search and rescue 
operations, supply energy needs to communities, and those that play an 
important role in national security and defense. The Corps is 
developing the necessary tools to use a risk-informed, asset management 
based approach to prioritizing funding and to evaluate the Federal 
return on investment. These tools will help in making better funding 
decisions than tons or ton-miles. In the mean time, the approach 
outlined above assists in making the best use of constrained resources 
and provides for commercial goods to reach the market and contribute to 
the economic well being of the Nation.
                                 ______
                                 
             Questions Submitted to Hon. Michael L. Connor
             Questions Submitted by Senator Byron L. Dorgan
                              rural water
    Question. In prior years I have talked about the drought situation 
in the West particularly as it relates to North Dakota. As we know, 
that is not the situation this year. However, can you talk about the 
drought situation in the West and what we should expect based on 
current models?
    Answer. Without significant snow pack or substantial rainfall, 
current drought conditions are expected to continue. Precipitation 
outlooks are generally unreliable beyond 3 months, and Reclamation 
itself does not forecast weather or drought conditions. Reclamation 
tracks current drought conditions based on information provided by 
other agencies focused on weather, including the National Oceanic and 
Atmospheric Administration's Climate Prediction Center (http://
www.cpc.noaa.gov/), and the Drought Monitor, managed by the National 
Drought Mitigation Center (http://www.drought.unl.edu/dm/monitor.html).
    Reclamation is working, together with other agencies, to promote 
the development of climate science and tools that will allow us to 
evaluate the impacts of climate change on water supplies. Reclamation 
has formed a Federal Climate Change and Western Water Group (CCAWWG) 
dedicated to providing scientific and research collaboration in support 
of Western water management as climate changes.
    Question. There are a number of projects in the fiscal year 2009 
Energy and Water Act that were not included in the President's fiscal 
year 2010 budget request. Can you provide us the capability amounts 
needed for those projects?
    Answer. All rural water projects are included in the President's 
fiscal year 2010 budget request.
    Question. I am happy to see that you have included all of the 
currently funded rural water projects in your budget. Although some are 
funded at very low levels. How did you arrive at the funding decisions 
for these projects?
    Answer. Rural water projects included in the fiscal year 2010 
President's budget request followed the criteria established by 
Reclamation which first provide for the required O&M component and then 
for projects nearest to completion and projects that serve on-
reservation needs.
    Question. How are we ever going to make progress on completing 
these projects, at these low budget levels? Inflation is going to 
increase the project cost faster than the funding we are investing.
    Answer. Reclamation is making significant progress in funding rural 
water projects throughout North and South Dakota and Montana. ARRA 
funds in the amount of $200 million were allocated to rural water 
projects. The Mid-Dakota rural water project was completed in fiscal 
year 2006 and Mni Wiconi is scheduled to be completed by 2013.
                               title xvi
    Question. Title XVI programs are not well supported by the 
administration. Can you explain what the issues are with this program? 
It seems the program would be a good fit with Reclamation's mission of 
bringing water and power to the west.
    Answer. The title XVI Water Reclamation and Reuse Program is an 
important part of Reclamation's mission and is a key element of 
Reclamation's Water Conservation Initiative to address 21st century 
water challenges. Projects funded through the title XVI program enable 
water to be reused, thereby improving efficiency, providing flexibility 
during water shortages, and diversifying the water supply. In addition 
to the fiscal year 2010 request, $135 million of funding under the 
American Recovery and Reinvestment Act of 2009 has been allocated to 
title XVI projects.
    Question. What modifications do you believe could be made to the 
title XVI program that would make it more acceptable to the 
administration?
    Answer. Reclamation recognizes that water reuse is an essential 
tool in stretching limited water supplies in the West. Under the 
President's budget request, the title XVI program will be part of a 
Water Conservation Initiative--along with the Challenge Grant program 
and Basin Study program--to address increasing water demands and 
decreasing water supplies due to extended droughts and climate change. 
Reclamation looks forward to working with the subcommittee to make the 
title XVI program as effective as possible as part of this coordinated 
approach to addressing 21st century water challenges.
    Question. How much of a backlog currently exists in the currently 
authorized title XVI program?
    Answer. There are currently 53 authorized title XVI projects, 
including new projects authorized as a result of the Omnibus Public 
Land Management Act of 2009 (Public Law 111-11).
                          aging infrastructure
    Question. The recently passed Lands Bill gave Reclamation the 
authority to address rehabilitation of its aging infrastructure. Prior 
to the passage of this legislation this rehabilitation work would have 
been a non Federal responsibility. Recognizing that this is a 
relatively new authority, has Reclamation established guidance for how 
this program is to be implemented?
    Answer. Reclamation is currently developing guidance regarding the 
implementation of this program. Similar programs designed to assist 
Reclamation project beneficiaries in financing the reimbursable costs 
of extraordinary maintenance and rehabilitation work have been 
implemented by Reclamation in the past, and we are drawing on that 
experience in developing implementation guidance.
    Question. Has Reclamation evaluated the condition of this 
infrastructure so that this work could be prioritized in a meaningful 
manner?
    Answer. Reclamation periodically evaluates the condition of its 
facilities through existing review programs. The recommendations 
resulting from the reviews are the basis for prioritization of funding 
for identified needs.
    Question. The language in the lands bill makes this work 
reimbursable over a period not to exceed 50 years. Will this be 
affordable to the non-Federal sponsors that most need this assistance?
    Answer. Current law requires the non-Federal sponsors to pay for 
their allocated portion of this work in advance or repay costs within 
the current year when work is performed. Allowing repayment over a term 
of up to 50 years will greatly ease the burden these entities have 
faced in the past in advancing or repaying the reimbursable costs that 
would be allocated to reimbursable project purposes. Reclamation would 
continue to pay the costs that would be allocated to non-reimbursable 
project purposes. However, given that some of the major repair work 
needed will be very costly, and that interest will be assessed on the 
reimbursable obligations, some project sponsors will still face 
challenges in repaying these costs. It is important to remember that 
non-Federal sponsors, in many cases, are responsible for repaying their 
allocated portions of the capital in addition to operations and 
maintenance costs of the Federal facilities. This law allows more 
flexibility to make payments over time, thereby reducing or minimizing 
long term Federal involvement.
    Question. With much of Reclamation's infrastructure more than 50 
years old, this problem is only going to increase. Has Reclamation 
developed contingencies to address failures of this infrastructure?
    Answer. Assuming that the reference to failures is in the context 
of not being able to continue water deliveries, this would pose a 
public policy question regarding the costs and benefits associated with 
major Federal investment in recapitalizing this infrastructure, as 
addressed in responses to Questions 12 and 13.
    Question. Would a cost shared Federal recapitalization of 
infrastructure that has exceeded its economic life make sense to 
consider?
    Answer. Reclamation believes that the Omnibus Public Land 
Management Act (Public Law 111-11) provides the authority to undertake 
such a program, and plans to consider the appropriateness of funding 
requests to supports these efforts on a project-by-project basis.
    Question. What would be required to establish a program like this 
in Reclamation?
    Answer. In order to establish an effective program to address aging 
infrastructure under the authority of the Omnibus Public Land 
Management Act, Public Law 111-11, Reclamation will need to establish 
procedures for allocating costs among reimbursable and non-reimbursable 
project purposes, set standards for appropriate repayments terms within 
the prescribed limits, and prioritize the use of available funds among 
its many aging facilities.
                                 ______
                                 
              Questions Submitted by Senator Patty Murray
                      odessa subarea special study
    Question. Commissioner Connor, I am disappointed that the Odessa 
Subarea Special Study, which was included in the fiscal year 2009 
President's budget request, has been eliminated in the fiscal year 2010 
President's budget request. As you know, the Columbia Basin Project is 
a critical tool for farmers in my home State of Washington. Securing a 
reliable surface water supply for the producers is important to 
ensuring the continuation of agriculture in Central Washington while 
protecting our groundwater supplies. Can you tell me why this project 
was eliminated in the President's budget request?
    Answer. Reclamation recognizes the importance of Columbia Basin 
water issues; however, faced with significant competing demands for 
aging infrastructure, satisfying Endangered Species Act regulatory 
requirements on operating projects, and other high priority water 
issues throughout the 17 Western States, no funding was included in the 
fiscal year 2010 President's budget. Reclamation also understands the 
importance, specifically, of the Odessa Subarea Special Study (Study). 
Reclamation has partnered with the State of Washington (State) to 
investigate the possibility of continuing development of the Columbia 
Basin Project to deliver project surface water to lands currently using 
ground water in the Odessa Subarea. Reclamation will continue to work 
with the State to bring the Study to completion as soon as possible. 
The State has identified the declining Odessa Subarea aquifer as the 
highest priority issue to address in the Columbia River Basin. The 
State will continue to fund the study in fiscal year 2010 and fiscal 
year 2011.
    Question. It is my understanding that the environmental impact 
statement analysis of the alternatives identified in the appraisal-
level investigation is underway, and the State of Washington and the 
Bureau are working together to complete this work. When do you 
anticipate completion of the feasibility study? Are you still on track 
for completion in 2011?
    Answer. Reclamation anticipates that the study may need to be 
extended. Reclamation and the State of Washington Department of Ecology 
(Ecology) are jointly preparing an environmental impact statement (EIS) 
to meet the National Environmental Policy Act and State Environmental 
Policy Act requirements. The draft EIS is currently scheduled for 
release to the public in spring 2010, with the final EIS scheduled for 
spring 2011.
    Question. Now that the appraisal-level investigation has been 
completed and the path forward has become more clear, an increase in 
the annual funding level will be needed to make sure the study is 
completed in a timely fashion. Unlike this year, can we expect to see 
future requests from the Bureau to reflect this?
    Answer. There will be a continued level of commitment from 
Reclamation to complete the study in fiscal year 2011. The State has 
indicated a continued level of commitment in 2010 and 2011.
                 washington state arra funded projects
    Question. Commissioner Connor, as you know, my State has many ready 
to go construction projects within the Bureau's purview, and as such 
was a beneficiary of Recovery Act funding, which I am thrilled about. 
Can you please provide an update on these projects?
    Answer. We too are pleased that so many worthy projects in the 
State of Washington received Recovery Act funding. The following is an 
update of those projects:
    The following contracts and work have been awarded:
  --Leavenworth National Fish Hatchery Complex--an Indefinite Delivery/
        Indefinite Quantity (IDIQ) task order was awarded for the 
        design of a water supply replacement system for the intake 
        facility. Amount $780,000.
  --Leavenworth National Fish Hatchery Complex--IDIQ task order was 
        awarded for survey work for the repair of the adult holding 
        pond. Amount $33,000.
  --Columbia/Snake River Habitat Projects hired a three-person crew to 
        work on the Methow Habitat Project Evaluation to meet 
        monitoring requirements. Amount $130,000.
    The following contracts are out for solicitation:
  --Roza Roller Gates solicitation was issued with an estimated award 
        of early October 2009 and construction projected to begin late 
        October 2009. Estimated cost $4.9 million.
  --Weber Siphon Complex solicitation was issued with an estimated 
        award of late September 2009 and construction projected to 
        begin late October 2009. Estimated cost is $49 million.
  --Potholes Supplemental Feed Route--Pinto Dam and Brooks Lake 
        solicitation was issued with an estimated award of mid-
        September 2009 and construction projected to begin mid-October 
        2009. Estimated cost is $3.1 million.
  --Grand Coulee Maintenance items have been advertised for bid on E-
        BUY with an estimated award date of mid-August 2009. Estimated 
        amount is $890,000.
    The following items are either in the review stage or being 
prepared:
  --Remaining Grand Coulee Maintenance items being reviewed for ARRA 
        compliance requirements in our Denver office.
  --Umatilla Project--Modifications and improvements on water delivery 
        system being reviewed for ARRA compliance requirements in our 
        Denver office.
  --Sunnyside Division Board of Control--the financial assistance 
        agreement to the Sunnyside Board of Control for piping three 
        large laterals is expected to be signed in mid-September.
  --Columbia/Snake River Habitat Projects--the financial assistance 
        agreement to the Methow Salmon Recovery Foundation for two fish 
        habitat improvement projects is expected be signed in early 
        September.
    Question. As you know, the Bureau owns billions of dollars worth of 
irrigation infrastructure all across the West, and the infrastructure 
is aging and in need of significant investment to maintain efficient 
operation. We have authorized and directed the Bureau to develop a 
Federal loan guarantee program to assist operators of Reclamation 
projects in securing low interest loans to encourage investment in 
Federal infrastructure.
    Can you please tell me the status of this program?
    Answer. This program has not yet been implemented. A proposed rule 
for the program has been published and comments were received. We will 
continue to keep Congress informed about the status of the program.
    Question. Do you think that this program is successful in 
encouraging local project operators to make these kinds of investments 
in our Federal facilities?
    Answer. The program has not been implemented, but we will continue 
to keep Congress informed about its status.
    Question. Are there other ways to encourage this investment?
    Answer. Section 9603 of the Omnibus Public Land Management Act of 
2009 (Public Law 111-11) was enacted to assist Reclamation project 
beneficiaries in paying for extraordinary operation and maintenance 
costs. Public Law 111-11 allows repayment of extraordinary O&M costs 
allocated to the authorized reimbursable purposes of the project within 
50 years, with interest.
                                 ______
                                 
            Questions Submitted by Senator Robert F. Bennett
                             quagga mussels
    Question. Quagga Mussels are becoming more of a problem in western 
waters and are affecting Reclamation projects. How much funding is 
included in Reclamation's budget to address the control of Quagga 
Mussels?
    Answer. In fiscal year 2009, Reclamation-wide appropriated funding 
for addressing the control of invasive mussels (both Quaqqa and Zebra 
mussels) includes just over $2.0 million. This funding encompasses 
activities related to the prevention of spread, early detection and 
rapid response for new infestations, control and management, research, 
and outreach and education. The fiscal year 2010 appropriated budget 
request totals nearly $3.5 million. In addition to appropriated 
funding, there are also direct or contributed funds and in-kind 
services to be provided by various partners and customers estimated to 
be nearly $375,000 and $475,000 in fiscal year 2009 and fiscal year 
2010, respectively. Reclamation also received $4.5 million in ARRA 
funding for monthly testing of 60 Reclamation reservoirs for presence 
of mussel larvae. This activity will continue through 2010.
    Question. What are the costs to Reclamation to deal with Quagga 
Mussels at Reclamation projects?
    Answer. Reclamation is continually working with its regional and 
area offices to consolidate invasive mussel related cost information. 
Appropriated Reclamation funding expenditures in fiscal year 2008 and 
fiscal year 2009 are estimated to total approximately $3.5 million and 
reflect Reclamation-wide costs to deal with invasive mussels to date. 
Future costs are expected to escalate as invasive mussels continue to 
spread throughout Reclamation in the 17 Western States.
    Question. Does Reclamation have a research and development program 
to study Quagga Mussels?
    Answer. Reclamation's Research and Development (R&D) Office has 
made invasive mussels a top priority. Zebra and Quagga mussel research 
under Reclamation's Science and Technology Program was started in 2008 
to address both existing and anticipated mussel impacts at Reclamation 
facilities throughout the Western United States. The emphasis is on 
monitoring, early detection, control, and mitigation to maintain 
Reclamation's water and hydropower operations. The goal is broad 
application of promising facilities protection technologies and 
strategies. Specific investigations seek to improve early detection 
methods, infrastructure coatings to prevent mussel settlement, mussel 
resistant fish screens, use of filters and Ultraviolet (UV) light 
systems, development of a bacterial product (Pseudomonas fluorescens) 
to kill mussels, control using natural predators, addressing post-
infestation rapid die-off impacts, and assessing mussel impacts in 
river and reservoir environments.
    Question. How much funding has Reclamation included in the fiscal 
year 2010 budget to study these invasive species?
    Answer. Reclamation's fiscal year 2010 R&D Office budget request 
includes $1.49 million for invasive mussel research.
                 desalination research and development
    Question. What research and development plans does Reclamation have 
for the Brackish Groundwater National Desalination Research Facility?
    Answer. In general, the work at this facility will focus on 
improvement and testing of technologies for the treatment of inland 
brackish groundwater and disposal of concentrate, with special emphasis 
on the use of renewable energy to drive such processes.
    Research funds for the Brackish Groundwater National Desalination 
Research Facility (BGNDRF), appropriated to Reclamation under the 
Desalination Act of 1979, were earmarked to New Mexico State University 
in fiscal year 2008 ($3.365 million) and fiscal year 2009 ($2.0 
million). For fiscal year 2010, we requested $1.6 million for O&M of 
the BGNDRF, and $2.133 million for research on advanced water treatment 
technologies, some of which will occur at the facility.
    Research to date at BGNDRF has included work with Sandia National 
Laboratories and a private sector company looking at an innovative 
concentrate disposal method and testing of new membranes developed by a 
university through an Office of Naval Research grant. Also underway is 
concentrate disposal testing by Veolia Water and electro-dialysis 
testing with New Mexico State University and General Electric. Other 
projects are in the discussion stages.
    The facility will provide all the requirements for researchers 
working with desalination systems, concentrate management issues, 
renewable energy/desalination hybrids, and rural systems.
    Question. Will the funding budgeted allow for meaningful research 
at the facility?
    Answer. Historically, Reclamation has ensured that research 
appropriations produce the highest quality products by defining the 
research objectives to address the highest-priority questions, and 
funding research through an open, competitive, peer reviewed process. 
These have been the administration's standards for research 
administration.
    This approach will be used to administer research at the BGNDRF 
facility for those appropriations that Reclamation controls. The 
amounts requested in the President's 2010 budget are sufficient to 
undertake important work advancing the treatment of brackish 
groundwaters.
    Reclamation's ability to ensure meaningful research is limited to 
the extent that the funds appropriated for this research are earmarked 
without an open, competitive process.
    Question. What other advanced water treatment options are showing 
promise for impaired groundwater?
    Answer. Many technologies exist to treat a range of brackish 
waters. Reclamation focuses its research on technologies that may 
represent a significant breakthrough in either cost reduction or 
effectiveness of treatment. Currently, two of the most promising 
technologies that Reclamation is developing are: (1) a truly chlorine-
resistant thin-film composite reverse osmosis membrane that will allow 
pre-treatment with chlorine to prevent bio-fouling without the 
degradation of the membrane, and (2) a more efficient cellulose-
triacetate membrane that is naturally chlorine resistant. Both 
technologies will likely be tested at the BGNDRF.
    Reclamation is also working with other Government agencies, 
universities, non-profits, and the private sector. Not only are there 
new membrane formulations being created and tested by Reclamation and 
others, innovative work is continuing on the development of cost 
effective concentrate disposal, reduced energy consumption/lower 
CO<INF>2</INF> footprint/renewables, reduced fouling, and alternative 
desalination technologies such as forward osmosis, membrane 
distillation, electro-dialysis, thermal technologies and others.
    Question. Do you see any potential for Reclamation becoming 
involved in the construction of desalination plants? Why?
    Answer. Historically, Reclamation has focused upon research and 
development of advanced water treatment technologies up through pilot 
scale testing and demonstration, and moving those technological 
advances to the private sector for commercialization. Given the very 
large global industry around design and construction of desalination 
plants, there does not appear to be a need for Reclamation to enter 
into this domain. However, Reclamation may be able to play a role in 
providing designs or reviewing designs for systems that are not a focus 
of the mainstream design and construction industry, for example for 
small-scale plants that are part of a Reclamation Rural Water project, 
or applications on Indian lands, or applications that are otherwise 
integrated with Reclamation projects.
    Question. You have only budgeted about $500,000 for drought 
assistance in fiscal year 2010. Is that funding sufficient to address 
the drought issues that are anticipated next year?
    Answer. Reclamation prepares its budgets 2 years in advance. 
Consequently, we are unable to forecast this kind of emergency. 
However, we make every effort to address the greatest need with the 
funds available and to put our efforts into funding on-the-ground 
activities.
    The amount requested for Drought Program funding in fiscal year 
2010 is primarily the result of a relatively flat overall budget for 
Reclamation and increasing costs associated with site security, dam 
safety, project rehabilitation, and operation and maintenance, to name 
just a few. Reclamation has many important programs that need to be 
funded, and has made its best effort to develop a budget that 
adequately balances the competing needs for these different programs.
    In addition to the $500,000 requested for drought assistance in 
fiscal year 2010, Reclamation recently announced $40 million in funding 
available under the American Recovery and Reinvestment Act (ARRA) of 
2009 to projects that will address the impacts of drought in 
California. The $40 million in ARRA funding will be used to fund 
drought projects beginning this summer and continuing throughout 2010.
    In addition to our Drought Program, Reclamation also addresses 
competing demands for finite water supplies through the Water 
Conservation Initiative. Reclamation has requested $46 million for the 
Water Conservation Initiative in 2010, which includes funding for the 
title XVI, Challenge Grant, and Basin Study Programs.
    Question. In the fiscal year 2010 budget, the rural Water Program 
authorized in 2006 appears to be finally getting out of the evaluation 
and rule making phase into actually starting to address the water needs 
in western States. Can you update us on the status of this program?
    Answer. The Rural Water Supply Act required that the Department of 
the Interior develop programmatic criteria for the new program and 
publish them in the Federal Register through a rulemaking process. In 
November 2008, the Department published an interim final rule (Rule) 
establishing comprehensive programmatic criteria governing eligibility, 
the prioritization of projects for funding, and the evaluation of 
studies completed under the program. The Rule became effective on an 
interim basis on December 17, 2008, and the 60-day public comment 
period ended on January 16, 2009. The Rule will be implemented upon 
completion of a set of guidelines or internal directives (``Directives 
and Standards'') describing how the program will be implemented by 
Reclamation. The Directives and Standards will describe key aspects of 
program implementation, such as how Reclamation will receive and review 
applications, how Reclamation will review completed studies, and will 
specify the required content of appraisal and feasibility studies 
completed or reviewed under the program. By establishing uniform 
requirements for program implementation, the Directives and Standards 
will help ensure that the program is implemented consistently, 
effectively and transparently across the organization.
                                 ______
                                 
                   Questions Submitted to Reed Murray
            Questions Submitted by Senator Robert F. Bennett
    Question. Mr. Reed, The budget for CUPCA is flat when compared to 
fiscal year 2009. Is this funding level sufficient to continue to make 
progress on this critical project?
    Answer. The President's 2010 budget for CUPCA is sufficient to 
continue CUP construction and implementation of CUP mitigation and 
conservation activities.
    Question. What is your total funding capability for CUPCA in fiscal 
year 2010?
    Answer. The President's 2010 budget for CUPCA represents the 
funding capability of the CUPCA program.
    Question. What will this additional capability accomplish?
    Answer. Since the President's 2010 budget represents the CUPCA 
programs funding capability the CUPCA budget justification documents 
adequately describe the proposed 2010 accomplishments.

                          SUBCOMMITTEE RECESS

    Senator Dorgan. This hearing is recessed.
    [Whereupon, at 11:50 a.m., Thursday June 18, the 
subcommittee was recessed, to reconvene subject to the call of 
the Chair.]

</pre></body></html>
